<html>
<title> - HURRICANE KATRINA: RECOMMENDATIONS FOR REFORM</title>
<body><pre>[Senate Hearing 109-863]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-863
 
                   HURRICANE KATRINA: RECOMMENDATIONS
                               FOR REFORM
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 8, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                      U.S. GOVERNMENT PRINTING OFFICE
27-747 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                          Amy L. Hall, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
        Michael L. Alexander, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     5
    Senator Lautenberg...........................................    10
    Senator Coleman..............................................    24
    Senator Levin................................................    29

                               WITNESSES
                        Wednesday, March 8, 2006

Hon. Barbara A. Mikulski, a U.S. Senator from the State of 
  Maryland.......................................................     6
Hon. David M. Walker, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................    11
Richard L. Skinner, Inspector General, U.S. Department of 
  Homeland Security..............................................    14
Bruce P. Baughman, President, National Emergency Management 
  Association, Director, Alabama State Emergency Management 
  Agency.........................................................    33
Frank J. Cilluffo, Associate Vice President for Homeland 
  Security, Director, Homeland Security Policy Institute, The 
  George Washington University...................................    38
Herman B. Leonard, Ph.D., Professor of Public Management, John F. 
  Kennedy School of Government, Professor of Business 
  Administration, Harvard Business School, Harvard University....    42

                     Alphabetical List of Witnesses

Baughman, Bruce P.:
    Testimony....................................................    33
    Prepared statement...........................................   132
Cilluffo, Frank J.:
    Testimony....................................................    38
    Prepared statement...........................................   140
Leonard, Herman B., Ph.D.:
    Testimony....................................................    42
    Prepared statement...........................................   148
    Supplemental testimony with an attachment....................   166
Mikulski, Hon. Barbara A.:
    Testimony....................................................     6
    Prepared statement...........................................    59
Skinner, Richard L:
    Testimony....................................................    14
    Prepared statement...........................................   110
Walker, Hon. David M.:
    Testimony....................................................    11
    Prepared statement...........................................    62

                                APPENDIX

Donald F. Kettl, Director, Fels Institute of Government, 
  University of Pennsylvania, Philadelpha, PA, prepared statement 
  with an attachment.............................................   178
John R. Harrald, Ph.D., Director, Institute for Crisis, Disaster, 
  and Risk Management, The George Washington University..........   187
Questions and responses for the Record from:
    Mr. Walker...................................................   193
    Mr. Skinner..................................................   202
    Mr. Baughman.................................................   220
    Mr. Cilluffo.................................................   224
    Mr. Leonard..................................................   233


             HURRICANE KATRINA: RECOMMENDATIONS FOR REFORM

                              ----------                              


                        WEDNESDAY, MARCH 8, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, the Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Lieberman, Levin, 
Carper, and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today, the Committee holds its 21st hearing on Hurricane 
Katrina. As this is our final hearing on Katrina, I would like 
to take this opportunity to thank all of my Committee 
colleagues, particularly my Ranking Member, Senator Lieberman, 
for their outstanding commitment to a matter of such importance 
to our Nation.
    I truly believe that this has been a model of a bipartisan 
investigation, and I am very grateful to Senator Lieberman for 
his leadership and cooperation.
    I would also like to express my deep appreciation to the 
Committee staff for their extraordinary efforts during this 
exhaustive and, at times, exhausting investigation.
    Eighty witnesses will have testified at our hearings. In 
addition, our staff has conducted more than 300 interviews and 
reviewed some 820,000 pages of documents.
    At our first hearing on Katrina, now nearly 6 months ago, I 
stated that it was this Committee's intention to conduct a 
thorough, deliberate, and fair review of the preparation for 
and response to this disaster at all levels of government, and 
we have done just that.
    I also pledged that we would ask the hard questions in 
order to learn why local, State, and Federal authorities did 
not work together as one cohesive and effective unit. A 
structure crafted with great investments of time, energy, and 
money after the attacks of September 11 failed its first major 
test. We now have a far better understanding of why the system 
failed the people of the Gulf region.
    The excuse that we have heard from some government 
officials throughout this investigation has been that Katrina 
was an unforeseeable ultra-catastrophe. While Katrina was, 
indeed, the worst natural disaster in our country in modern 
times, it had been anticipated for years and was specifically 
forecast for days.
    That justification also misses the point that we need to be 
ready for the worst that nature or evil men can throw at us. 
Powerful though it was, the most extraordinary thing about 
Hurricane Katrina was our lack of preparedness for a disaster 
so long predicted.
    Our 20 hearings to date have taken us from the front lines 
of search and rescue to the top of the Department of Homeland 
Security. They have provided us with a tremendous body of 
knowledge about the emergency preparation and response tactics 
that worked and those that did not.
    Now it is time to turn this tactical knowledge into a new 
strategy. Thus, today, we turn our attention to the 
recommendations for reform. This is not the first time that the 
devastation of a natural disaster brought about demands for a 
better, more coordinated government response. In fact, this 
process truly began after a series of natural disasters in the 
1960s and into the 1970s.
    One of those disasters was Hurricane Betsy, which hit New 
Orleans in 1965. The similarities between Betsy and Katrina are 
striking: Levees were overtopped and breached, severe flooding, 
communities destroyed, thousands rescued from rooftops by 
helicopters, thousands more by boat, and far too many lives 
lost.
    In a report published in 1993, a year after Hurricane 
Andrew hit Florida, the GAO wrote, ``The response to Hurricane 
Andrew raised doubts about whether FEMA is capable of 
responding to catastrophic disasters and whether it had learned 
any lessons'' from previous disasters.
    One could simply substitute Katrina for Andrew, and 
unfortunately, the same conclusions would be valid today. And 
that is very disturbing.
    Indeed, during the last half century, the Federal 
Government has experimented with eight different emergency 
management structures from the Housing and Home Finance 
Administration of the 1950s to the latest incarnation of FEMA 
within the Department of Homeland Security. Katrina has 
revealed that this kaleidoscope of reorganizations, 
unfortunately, has not improved our disaster management 
capability during these critical years.
    Our purpose and our obligation now is to move forward to 
create a structure that brings immediate improvement and 
continual progress. This will not be done by simply renaming 
agencies or drawing new organizational charts. We are not here 
to rearrange the deck chairs on a ship that, while perhaps not 
sinking, is certainly adrift.
    This new structure must be based on a clear understanding 
of the roles and capabilities of all emergency management 
agencies. It must establish a strong chain of command that 
encourages, empowers, and trusts front-line decisionmaking. It 
must replace ponderous, rigid bureaucracy with discipline, 
agility, cooperation, and collaboration.
    It must build a stronger partnership among all levels of 
government, with the responsibilities of each partner clearly 
defined, and it must hold them accountable when those 
responsibilities are not met.
    We know our goal. I look forward to the views our witnesses 
will offer today on how to achieve it. I have a number of 
questions that I am going to be raising. I am going to insert 
them in the record in the interest of time.
    I am particularly pleased that we are going to hear today 
from our distinguished colleague, Senator Mikulski of Maryland. 
She is a dedicated advocate for reform of our emergency 
response system. Due to her work on the Appropriations 
Committee, she brings a great deal of knowledge to this issue.
    We are also fortunate that our other witnesses today will 
provide a wide range of experience and expertise that will help 
us craft a national emergency management system that will 
better serve the American people during disasters, whether they 
are acts of nature or acts of men.
    The hearings that the Committee has conducted form a solid 
foundation for the work that lies ahead. As we proceed, we 
would do well not just to bear in mind what we have learned in 
this room, but also to take to heart what many of us have seen 
in the ruins of the Gulf Coast of Mississippi and in the 
devastated neighborhoods of New Orleans.
    The suffering in those places is great, but the 
determination of the people there to rebuild their lives is 
even greater. Our determination to build a truly effective 
national emergency management system must be just as strong.
    [The prepared statement of Senator Collins follows:]
             PREPARED OPENING STATEMENT OF SENATOR COLLINS
    Today, the Committee holds its 21st hearing on Hurricane Katrina. 
As this is our final hearing, I would like to take this opportunity to 
thank my Committee colleagues, particularly the Ranking Member, Senator 
Lieberman, for their outstanding commitment to a matter of such 
importance to our Nation.
    I also would like to express my deep appreciation to Committee 
staff for their extraordinary efforts during this exhaustive (and at 
times exhausting) investigation.
    Eighty witnesses will have testified at our hearings. In addition, 
our staff has conducted more than 300 interviews and reviewed some 
820,000 pages of documents. At our first hearing on Katrina, now nearly 
6 months ago, I stated that it was the Committee's intention to conduct 
a thorough, deliberate, and fair review of the preparation for and 
response to this disaster at all levels of government. We have done 
that.
    I also pledged that we would ask the hard questions in order to 
learn why local, State, and Federal authorities did not work together 
as one cohesive and effective unit. A structure crafted with great 
investments of time, energy, and money after the attacks of 9/11 failed 
its first major test. We now have a far better understanding of why the 
system failed the people of the Gulf Region.
    The excuse that we have heard from some government officials 
throughout this investigation has been that Katrina was an 
unforeseeable ultra-catastrophe. While Katrina was the worst natural 
disaster in our country in modern times, it had been anticipated for 
years and was specifically forecast for days. That justification misses 
the point that we need to be ready for the worst that nature or evil 
men can throw at us. Powerful though it was, the most extraordinary 
thing about Katrina was our lack of preparedness for a disaster so long 
predicted.
    Our 20 hearings to date have taken us from the front lines of 
search and rescue to the top of the Department of Homeland Security. 
They have provided us with a tremendous body of knowledge about the 
emergency preparation and response tactics that worked, and those that 
did not.
    Now it is time to turn this tactical knowledge into a new strategy. 
Thus, today, we turn our attention to the recommendations for reform.
    This is not the first time the devastation of a natural disaster 
brought about demands for a better, more coordinated government 
response. In fact, this process truly began after a series of natural 
disasters in the 1960s and into the 1970s. One of those disasters was 
Hurricane Betsy, which hit New Orleans in 1965. The similarities with 
Katrina are striking: Levees overtopped and breached, severe flooding, 
communities destroyed, thousands rescued from rooftops by helicopters, 
thousands more by boat, and too many lives lost.
    In a report published in 1993, a year after Hurricane Andrew hit 
Florida, the GAO wrote that, and I quote, ``the response to Hurricane 
Andrew raised doubts about whether FEMA is capable of responding to 
catastrophic disasters and whether it had learned any lessons'' from 
previous disasters. One could simply substitute ``Katrina'' for 
``Andrew,'' and, unfortunately, it would be valid today.
    Indeed, during the last half-century, the Federal Government has 
experimented with eight different emergency management structures, from 
the Housing and Home Finance Administration of the 1950s to the latest 
incarnation of FEMA within the Department of Homeland Security. Katrina 
revealed that this kaleidoscope of reorganizations has not improved our 
disaster management capability during these critical years.
    Our purpose and our obligation now is to move forward to create a 
structure that brings immediate improvement and that guarantees 
continual progress. This will not be done by simply renaming agencies 
or drawing new organizational charts. We are not here to rearrange the 
deck chairs on a ship that, while perhaps not sinking, certainly is 
adrift.
    This new structure must be based on a clear understanding of the 
roles and capabilities of all emergency management agencies. It must 
establish a strong chain of command that encourages, empowers, and 
trusts front-line decision-making. It must replace ponderous, rigid 
bureaucracy with discipline, agility, cooperation, and collaboration. 
It must build a stronger partnership among all levels of government 
with the responsibilities of each partner clearly defined, and it must 
hold them accountable when those responsibilities are not met.
    We know our goal. I look forward to the views our witnesses will 
offer today on how to achieve it. To that end, it is essential that we 
hear their views on such questions as:
    How do we design a comprehensive emergency management structure 
that is focused on all-hazards mitigation, preparation, response, and 
recovery?
    What role should the Federal Government play in ensuring that State 
and local governments are prepared to respond to disasters?
    What is the best use of the Federal Government's resources when a 
disaster strikes?
    What is the appropriate role for the Department of Defense in a 
domestic disaster?
    What changes might be needed to the Stafford Act so that there are 
no statutory impediments to carrying out the preparedness and response 
functions, so that Federal actions can start well before State and 
local resources are overwhelmed?
    What will be required to make the FEMA Director's position one that 
will be sought by experienced professional emergency managers?
    And, central to the Committee's oversight responsibilities, what 
changes are needed so that DHS will become more effective in all stages 
of emergency management--prevention, preparedness, response, and 
recovery?
    I am especially pleased to welcome our distinguished colleague, 
Senator Mikulski, to the Committee. Senator Mikulski is a dedicated 
advocate for reform of our emergency response system. Our other 
witnesses today also provide a wide range of expertise and experience 
that will help us craft a national emergency management system that 
will better serve the American people during disasters, whether acts of 
nature or terrorist attacks.
    The hearings that the Committee has conducted form a solid 
foundation for the work that lies ahead. As we proceed, we would do 
well not just to bear in mind what we have heard in this room, but also 
to take to heart what many of us have seen in the ruins of the Gulf 
Coast of Mississippi or in the devastated neighborhoods of New Orleans. 
The suffering in those places is great, but the determination of the 
people there to rebuild is even greater. Our determination to build a 
truly effective national emergency management system must be just as 
strong.

    Chairman Collins. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman. I join 
you in welcoming our dear friend, distinguished colleague 
Senator Mikulski, and the other witnesses.
    After 21 hearings over the past 2 months and after hundreds 
of interviews conducted by our staffs and hundreds of thousands 
of documents, we are nearing the end of our investigation into 
one of the worst natural disasters in American history. A 
disaster whose effects and echoes will carry far into the 
future, making our work today that much more important.
    I want to join in the thanks that you expressed at the 
beginning of your remarks, and I begin with you. This has been 
actually an extraordinary experience in my 18 years now in the 
Congress.
    It has been a first-rate investigation. It has been 
nonpartisan. It has been professional. It has been thorough. 
And that all starts with the tone and substance that you have 
set as the Chairman of the Committee, and I can't thank you 
enough for that and the good working relationship that we have 
had. And I know that we are going to stick together to finish 
this work and make the soundest, most constructive 
recommendations that we possibly can.
    I join you in thanking the other Members of the Committee, 
who have gone on this long march with us and contributed 
greatly, Members of both parties, to our work, and the staff. 
And I have to really say staff in the singular. One of the good 
aspects of this Committee is that we don't have a Democratic 
staff and a Republican staff. We have, in this investigation, a 
staff working together to find out the truth and to help us 
learn from it.
    I thank them. Their work, like ours, is not done. As a 
matter of fact, they have a lot of work to do in putting 
together the enormous amount of information that this 
investigation has gathered and in helping us to express it in 
an informative and compelling way to our colleagues in the 
Senate and to people in the public generally.
    So we are concentrating on writing that report to try to 
explain to the American people what went wrong in the run-up to 
Hurricane Katrina and to its aftermath. And our hope, of 
course, is that in telling that story with as unwavering a 
commitment to the truth as we can marshal, we will help people 
learn lessons--those in power and those who are not--so that 
from knowledge and information will come change.
    It already has begun to happen in the Federal Government 
and the State and local as well. But just as importantly, we 
have a responsibility ourselves, having gone through this 
experience, to try to put forth our best ideas on what needs to 
be done to make sure that the next time--and there surely will 
be a next time--our government is better prepared to protect 
the American people.
    Today, we are going to hear from Senator Mikulski and other 
witnesses who have been working to improve our Nation's 
preparedness for disasters, whether caused by terrorists or 
acts of nature, and they can help us enormously.
    The fact is that the failures of government associated with 
Hurricane Katrina were overwhelming, and they occurred at all 
levels. That is clear from our investigation and I know is 
self-evident at this point to the American people. Government's 
response to Katrina was a national disgrace, and it has shaken 
the confidence of the American people in their leaders' ability 
to protect them when they most need that protection.
    However, out of this catastrophe, which has been followed, 
I am afraid, by a painfully slow and flawed recovery, we have a 
chance together to show the way to the creation of a new system 
of disaster preparedness, response, and recovery that learns 
from those agencies that worked very well, like the Weather 
Service and the Coast Guard, while reforming those that did 
not, like FEMA. That is our charge.
    I thank the witnesses. I hope that they will be bold in the 
recommendations that they make to us because the consequences, 
as we have seen in Katrina, of a lack of adequate preparation 
are severe to literally hundreds of thousands of people and to 
a great region of our country and one of the great cities of 
our country.
    And if we are not prepared to think boldly about how we can 
do better the next time, shame on us. So it is with that sense 
of high expectations that I look forward to this final, but 
very important, hearing in our Katrina investigation.
    And again, Madam Chairman, I thank you for your leadership.
    Chairman Collins. Thank you.
    Senator Mikulski, we are delighted to have you with us 
today, and I would ask that you proceed with your statement.

 TESTIMONY OF HON. BARBARA A. MIKULSKI,\1\ A U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Mikulski. Thank you very much, Chairman Collins and 
Ranking Member Lieberman. Thanks so much for inviting me to 
testify, and my kudos to the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Mikulski appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    First of all, wherever the word ``reform'' rings out within 
the Congress, it seems to come to Government Ops to do the 
jobs. And you have been leading the way, both you, Senator 
Collins, and your colleagues, whether it was intel reform. And 
then after that, I thought you were going to get a breather 
this summer. Then, of course, now the Katrina reform and 
lobbying reform.
    This is obviously the reform committee and why I wanted to 
come and testify. You should be congratulated for the 
reputation the Committee has gained for its fairness, its 
thoroughness, its pragmatism, and also its collegiality and 
civility. Maybe if we all worked like this together, we would 
achieve reform.
    So I contacted the Committee after Katrina in September to 
see if I could offer my services to the Committee because in 
the 1990s, early 1990s, I was the Chair of the VA/HUD and 
Independent Agencies Appropriations Subcommittee that funded 
FEMA. And to offer what we did in terms of reform because of 
Hurricanes Hugo and Andrew, to see what were the lessons 
learned, why did FEMA lose its way, and some observations.
    In 1989, I became the Chairperson of the VA/HUD 
Subcommittee. FEMA was in the jurisdiction. Senator Garn, my 
wonderful colleague, was my ranking member. Well, what we found 
was that FEMA was a Cold War relic, and we went to work on a 
bipartisan basis, transforming it from a relic of the Cold War 
into a professional, prepared, all-hazards agency.
    Coming back to Katrina, sure, Katrina was the storm we all 
feared. In the hours and days after Hurricane Katrina, like all 
of you, I watched in disbelief and absolute frustration. Why? 
At the Federal Government's befuddled and boondoggled response, 
blowing it.
    The people of the Gulf Coast were doubly victimized--first, 
by the hurricane; second, by the slow and sluggish response of 
our government. And I thought, how like Hugo, how like Andrew. 
I didn't know about Betsy. So this, of course, has prompted 
reform.
    Well, back in 1989, when we took a look at this, what did I 
see? What I found out, as I took over the chairmanship of that 
subcommittee was that FEMA was a Cold War agency. It focused 
only on worrying about if we were hit by a nuclear attack.
    It was out of date. It was out of touch. It was riddled 
with political hacks. If you had to give somebody a favor job, 
whether it was at the Federal level or the State level, put 
them in civil defense. It was called ``civil defense.''
    And many of us of my generation remember where we used to 
practice by hiding under those desks if war came. Well, that is 
the way the bureaucrats were. Any time there was a question, 
they hid under their desks. So we set about reform.
    They were focused on something called ``continuity of 
government.'' It was incompetent leadership, and they had 
ridiculous ideas. In the event of a nuclear war, stop first at 
the post office and leave your forwarding address to these 
three shelters. Oh, right. Absolutely. So you get a sense of 
what it was like.
    But Senator Garn and I looked at it, and then what happened 
was Hurricane Hugo hit the Carolinas, particularly South 
Carolina. FEMA's response was very poor. The military had to 
come in to get the power back up in Charleston. The people went 
over a week without basic functions. Sound familiar?
    Our former colleague Senator Hollings had to call the 
President's chief of staff, John Sununu, to get help and called 
the head of Joint Chiefs, then General Colin Powell, just to 
get generators from the Army.
    And it was like the Keystone cops. ``Are you in charge?'' 
``No, I am not in charge.'' ``Do you have the generators?'' But 
they didn't ask. It was all of that. In the meantime, there was 
no water. There was no utilities in Charleston.
    We began then to examine what steps we should take in 
reform. Along the way, we were hit by Andrew. Andrew was, 
again, the worst disaster. FEMA's response was so bad, and they 
were so inept, that President Bush sent in Andy Card, then his 
Secretary of Transportation, to take over.
    I remember seeing a woman named Katie Hale saying, ``Where 
in the hell is the cavalry? We need food. We need water. We 
need people.''
    So, having said all of that, it was very clear to Senator 
Garn and me that our job was to protect lives, protect people, 
and now, of course, protect the homeland. Working with Senator 
Garn, then with Senator Bond, we worked to change it. We 
commissioned three studies, and I would ask you to go take a 
look at them.
    One was a GAO study. The other was the National Academy of 
Public Administration, and then FEMA's own IG--they do a 
spectacular job, and I know you are going to hear from IG 
Skinner later. So we looked at all of this, and we wanted to be 
able to prevent, do what we could for prevention, and to do 
what we could to respond.
    Our goals then, and they continue now, are these. And they 
will go to reform. We said, first of all, FEMA had to be 
professionalized. You need a professional director and a 
professional staff. That whoever runs FEMA has to have a 
background in crisis management, either to come from emergency 
response at the State level, the way James Lee Witt and Joe 
Allbaugh did, or to come from the military or the private 
sector, where they have done crisis management and know how to 
organize large numbers of people.
    But not only professionalize Washington, but to insist that 
there be professionals at each State level. And I would 
emphasize reform must be also directed at the States because no 
matter how good James Lee was, no matter how dedicated Joe 
Allbaugh was, that if they didn't have the States functioning 
well, it wouldn't work.
    And as we know, the genius of our system is that each State 
will have a different type of threat. The terrain is different. 
The threat is different. And they need to be ready. So the 
professionalization.
    And the way was that each State submit a plan, and if you 
don't do the right plan and do tabletops, you are not going to 
get the money. And I think you have to have a muscular way of 
having State plans that are in place with professional people 
and where there are benchmarks for measurement and then use the 
ultimate withholding.
    That is tough. But let me tell you, it worked. So that is 
why we go for the professionalization of FEMA.
    The second was we focused on it being a risk-based agency. 
That means to be prepared for any risk that Americans are most 
likely to face. Because we thought then that the threat of the 
Cold War was coming to an end. The wall was coming down in 
Berlin, but the wall wasn't coming down in the Federal 
bureaucracy.
    So we said what are the risks? Well, threats were natural 
disasters. In our State, and we are coastal senators--I share a 
coastline with my colleague from Delaware--we are threatened by 
hurricanes. As soon as June comes, we are on our hurricane 
readiness thing.
    So regardless of what the threat is, and now it is even 
more important because whether it is an earthquake in 
California, a tornado in the Midwest, or, of course, the 
terrorist attack.
    Third, to be ready for all hazards. And again, it is the 
States that we get ready, with Washington offering command and 
control and the ultimate back-up of send in the cavalry should 
the States collapse. All hazards means to be prepared, like 
when we had a fire in the Baltimore tunnel that we didn't know 
was predatory or not. A hazardous chemical spill. A hurricane. 
A tornado. Or even a dirty bomb.
    If we practice the three Rs of readiness, meaning that if 
we are ready, and we are ready at the State level, then we can 
respond where the threat occurs, and then you have the 
infrastructure ready for recovery.
    We were able to put the State plans, professionalize the 
agency, in place. What was never really ultimately addressed, 
though, was the Federal back-up if there is a complete 
collapse. That is something that I believe needs to be very 
carefully examined because of two things.
    First, I recall Governor Chiles of Florida when Andrew hit. 
He said, ``We need NASA satellites to tell me what my coastline 
looks like. We can't even call the first responders. The 
firehouses are under water.'' And you know all of the great 
tragedies that you heard.
    There does come a time when there is only the Federal 
Government that can bring in under some kind of doctrine of 
mutual aid, really come in, and provide the resources 
necessary. We lost cities. We had never lost an entire city, 
except back to Betsy. That has to be dealt with.
    The other was the role of the Vice President, and our 
earlier recommendation was that the Vice President always 
backed the President up. But when a big disaster, like ``the 
big one's hit,'' that the Vice President move to the Situation 
Room and really take charge to be ensured that the governors 
can handle the job, that the governors next to the States 
affected can provide mutual aid, and so on.
    Because it also is an appropriate role for the Vice 
President. Should the President be out of the country, the Vice 
President would be prepared. And also should the Vice President 
ever have to take over for any reason, the Vice President would 
know the complete working of the FEMA disaster plans and how it 
should work.
    There are those other questions, too, of legal authority, 
when the government takes over. So our three Rs have to be 
readiness, response, and recovery. To do that, we have to have 
professionalization, risk based, all hazards.
    Hurricanes are predictable. Terrorist attacks are not. And 
we have to be ready. And Madam Chairman and colleagues, I am 
concerned that whether it is avian flu, whether it is another 
hurricane--getting ready for the season--or something else, we 
don't know the question ``who is in charge?'' That question has 
never been answered. Who manages the disaster? And most of all, 
who manages the panic around that, and who speaks?
    Your HELP Committee members have just done a tabletop on 
bioterrorism. It is the same. So I believe, first, maybe FEMA 
ought to be an independent agency. Take a look at that. Second, 
maybe we need a disaster response agency which handles this. 
But I also think that we need to take a look at what would be 
our response and how we would handle these others.
    Like avian flu, are we going to call FEMA in? Is FEMA going 
to be avian flu? I don't know, if we have to respond. I don't 
think so. I would hope not.
    But should we have a new framework for that? What are the 
legal authorities? Can a President supersede a governor, if 
necessary? These are the big questions. But I believe we can 
create the right infrastructure. We can be ready for the 
natural disasters and so on.
    I am going to conclude by saying when we work together--I 
don't mean just us--it really works. We know how we have worked 
with Delaware.
    Just the other night, there was a terrible accident in a 
factory in West Virginia. The closest search and rescue team 
with helicopters was Maryland with our State police. But 
because they had worked together, because they had trained 
together, because they knew each other, they talked to each 
other, trusted each other, my wonderful Maryland State troopers 
were able to go fly that 90 miles.
    The Coast Guard was too far away. This is up near our 
Appalachian region. And in pitch blackness, with power lines 
around them when they couldn't see, they went down and were 
able to rescue two. And for the third, they weren't sure 
whether he was going to get into the little basket that they 
have. But they stayed to make sure they were going to leave no 
one behind.
    Our State troopers did it, but they did it because they 
were professional. They were trained. They had worked together. 
They had trusted. That is what they did.
    That terrible night in West Virginia 48 hours ago should be 
a model of what we need. Let us work together, train together, 
and trust each other.
    Thank you very much. And I hope this has been useful.
    Chairman Collins. Thank you very much for your excellent 
testimony. It was, indeed, very useful, and we very much 
appreciate your sharing your experiences with us.
    I know you are on a tight schedule. So I am happy to 
dispense with any questions, unless any of my colleagues have a 
question?

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Just a quick statement. How refreshing 
it is to hear from someone who is not afraid to call a spade a 
shovel and whatever other language is suitable for the moment.
    But Senator Mikulski and I have served together for almost 
20 years, and she is always there in a leadership mode 
describing reality of what has to be done. She is more than 
``woe unto us,'' and I thank Senator Mikulski for the respect 
that she brings to the Senate and for the affection in which we 
all hold her because of her thoughts and her words. Thank you.
    Senator Mikulski. Thank you, Senator Lautenberg.
    I am in this for the long haul. So as you look at your 
reform, through our conversations together, please count on me 
to be available for discussion, conversation, and to move a 
reform package.
    Thank you very much, and good luck with your work.
    Chairman Collins. Thank you.
    I would now like to welcome our second panel of witnesses. 
David Walker began his 15-year term as Comptroller General of 
the United States in 1998. As Comptroller General, Mr. Walker 
is the Nation's chief accountability officer and the head of 
the U.S. Government Accountability Office.
    Richard Skinner is the Inspector General of the Department 
of Homeland Security and has been with the DHS IG office since 
it was established in 2003. Previously, and this is very 
helpful to our deliberations, he served in the FEMA IG office 
from 1991 to 2003.
    Because we are doing an ongoing investigation, we are 
swearing in our witnesses. So I will ask that you please rise.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    The Witnesses. I do.
    Chairman Collins. Thank you. Mr. Walker, we will begin with 
you.

 TESTIMONY OF THE HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL 
  OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Chairman Collins, Senator Lieberman, other 
Senators, it is a pleasure to be back before you this time to 
speak on GAO's preliminary observations regarding preparedness, 
response, and recovery issues dealing with Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    As has been mentioned by the Chairman, GAO has been in this 
business for many years. Unfortunately, as Yogi Berra said, 
it's ``Deja vu all over again,'' in certain regards.
    It is important to note that we have done a tremendous 
amount of past work. We also have over 40 engagements under way 
right now. We have interviewed numerous people and looked at 
thousands of documents. I, myself, have had the opportunity not 
only to go to the region, but also to speak with all of the 
governors, with Mayor Nagin, and with the key responsible 
Federal officials in order to try to help provide you some of 
our insights as to what we have found to date.
    At the outset, as the Chairman mentioned, Katrina was of 
unprecedented size, scope, and magnitude, at least with regard 
to recent history for natural disasters in the United States. I 
might also note that a year ago, I had the opportunity to go to 
Indonesia and to view firsthand the devastation in Banda Aceh 
due to the tsunami, and Southern Mississippi looked very much 
like Banda Aceh. But for the twice flooding of New Orleans, I 
think the headlines would be about Southern Mississippi. 
Nonetheless, we are where we are.
    It is clear that due to the size, scope, and magnitude of 
Hurricane Katrina, that Federal, State, and local capabilities 
were overwhelmed. At the same point in time, we should have 
done better, and we should have learned from lessons past. 
Unfortunately, many of the recommendations the GAO made back in 
1993 in the aftermath of Hurricane Andrew had not been adopted 
at the time that Hurricane Katrina hit.
    We found that there are four key lessons at this stage that 
need to be learned. I would respectfully request, Madam 
Chairman, that we include my full statement in the record. 
There are numerous observations and recommendations contained 
therein, and I will move to summarize them.
    First, leadership. Who is in charge? Who is responsible for 
what? There is a clear need to better define and communicate 
key leadership roles along with the related responsibilities 
and authorities, especially in connection with catastrophic 
events. I would respectfully suggest that putting aside the 
acronyms that proliferate in Washington, that there are at 
least three key roles that must exist when you are dealing with 
a catastrophic event.
    First, you need at least one Level 1, or Cabinet level, 
official, possibly even the Vice President, who would be 
designated by the President of the United States to be his or 
her point person. This person would look from the strategic 
perspective and coordinate the overall Federal response. This 
person would work with Cabinet-level officials here in 
Washington, along with governors, mayors, and other key 
officials to make sure that the Federal Government did its part 
in connection with catastrophic events.
    If they are not at least Level 1, I would respectfully 
suggest they are not in a position to be successful. Because no 
matter how capable the person might be, level matters in this 
town, unfortunately, especially with regard to certain 
departments and agencies like the Department of Defense. 
Hierarchy is real.
    There needs to be a person who has overall responsibility 
and is deployed on the front line in the region to coordinate 
the overall operational activities of the Federal Government 
across geopolitical subdivisions, which, in this particular 
case, there were two States that were primarily affected, and 
four total States that were directly affected by the disaster. 
Many others were also affected later in dealing with those 
individuals who were displaced.
    Finally, we obviously need contracting officials in each of 
the respective geopolitical subdivisions to coordinate Federal 
contracting activities. So leadership is key.
    Second, the National Response Plan must be clarified. 
Inconsistencies must be addressed. And common sense must be 
applied. In particular with regard to the Catastrophic Annex, 
the idea that we would be less proactive in dealing with a 
known natural disaster just defies common sense. We must be 
proactive as soon as we can be, and therefore, it is important 
that situations like known Category 4 and 5 hurricanes be 
handled quickly and in advance of the actual catastrophic event 
taking place.
    I, myself, have been through a Category 4 hurricane. So I 
know what they are all about. The National Weather Service, in 
this particular case, did their job and provided adequate 
warning. Unfortunately, the government didn't act quickly 
enough to respond to those warnings.
    Third, there must be additional planning and robust 
training and exercise programs involving the total force. The 
total force is Federal, State, local, military, and civilian as 
well as not-for-profit and, in some case, private sector for-
profit entities because, let's faceit, they have resources and 
capabilities that, in some cases, were mobilized in Katrina and 
could be mobilized to a greater extent in the future. 
Logistical capabilities and other types of assets that are 
needed in the aftermath of an event.
    Finally, we must strengthen our response and recovery 
capabilities. We must be more adequately resourced. We should 
consider pre-contracting arrangements negotiated not when we 
face an imminent crisis and have to buy things, but we should 
pre-contract and issue task orders in the event a catastrophe 
occurs.
    We should also employ pre-positioning strategies to a 
greater extent than we did in this case. If the military can do 
it to deal with military contingencies around the world, why 
can't we do it to deal with natural disasters domestically? We 
should be pre-positioning to a greater extent than we have.
    We also must move beyond business as usual, bureaucratic 
approaches in the aftermath of a disaster. There were too many 
circumstances that I saw where people were trying to, ``Well, 
this regulation says you have got to do this'' before you can 
enter this building or before you can end up positioning 
something in a particular location.
    When we have a catastrophe, this is not a business as usual 
approach. Some of these changes may require legislation in 
order to allow agencies to otherwise override established 
regulations on a temporary basis in situations where certain 
provisions may make imminent good sense under normal 
circumstances. In the event of a catastrophe, we need to do 
things differently.
    A few sum-up comments. Risk management is of critical 
importance. We must employ a threat and risk-based approach to 
our actions and better target the limited resources that the 
government has. This government ran a $760 billion deficit on 
an accrual basis last year, an all-time record in the history 
of the United States. We need to employ more threat and risk-
based approaches to our resource allocation decisions in order 
to get the most return on investment with whatever resources we 
have.
    There is some controversy about whether or not FEMA should 
continue to be in DHS or whether it should be spun out. There 
are pros and cons to that. But I would respectfully suggest 
that the quality and capabilities of FEMA's leadership--and 
that is more than one person, I might add--as well as the 
adequacy of FEMA's resources will probably have more to do with 
their ultimate success than whether or not they are in the 
Department of Homeland Security.
    Let us keep in mind that the Coast Guard is part of the 
Department of Homeland Security. Therefore, merely because one 
is or is not in the Department of Homeland Security is not, in 
and of itself, dispositive.
    Last, the rebuilding efforts are going to take a long time, 
and we are off to a slow start. But the State and local 
governments have the primary responsibility for pulling 
together a plan. At the same point in time, the Federal 
Government clearly has a vested interest because we know that 
the Federal taxpayers are going to be asked to contribute 
significantly to this overall effort.
    In that regard, it is very important that the State and 
local governments work together to develop a comprehensive and 
integrated plan that can be presented to the Federal Government 
to determine its appropriate role. It is important that we 
start talking about what should be rebuilt, where, when, and 
based upon what standards? Who is going to pay for what and 
based on what conditions? What type of oversight will be in 
place in order to make sure that the taxpayers get value for 
money and to minimize the possibility of fraud, waste, abuse, 
and mismanagement?
    These are just a few of the key issues that are contained 
in my fairly extensive written statement, and I really do 
appreciate the opportunity to be here. I would like to commend 
this Committee for the work that you have done. There is not 
enough oversight and investigation being done, but this 
Committee is clearly leading by example, and I would like to 
commend all of you for that.
    Thank you.
    Chairman Collins. Thank you. Mr. Skinner.

  TESTIMONY OF RICHARD L. SKINNER,\1\ INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Skinner. Madam Chairman, Ranking Member Lieberman, 
Members of the Committee, thank you for having me back here 
again today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skinner appears in the Appendix 
on page 110.
---------------------------------------------------------------------------
    It is my hope that lessons learned from the response to 
Hurricane Katrina will form the foundation for critical 
improvements necessary for the Nation to prepare for and 
respond to any disaster, natural or man-made.
    As far back as 1992, when Hurricane Andrew devastated 
Southern Florida, my office has completed a number of reviews 
related to FEMA preparedness and response operations. These 
reviews identified serious deficiencies in FEMA's disaster 
preparedness and response programs. Yet today, many of these 
weaknesses still have not been adequately addressed, which, in 
my opinion, contributed to many of the problems that we 
experienced after Hurricane Katrina.
    Today, I would like to focus my remarks on five of these 
problems where I believe improvements are needed immediately. 
First, the Department needs to clarify, better define, train, 
and exercise disaster responders at all levels of government on 
protocols and operational use of the National Incident 
Management System (NIMS) and the National Response Plan.
    Both NIMS and the National Response Plan are watershed 
planning concepts that restructure how Federal, State, and 
local emergency responders conduct disaster response and 
recovery activities. They had been exercised only once when 
Katrina struck, and the flaws that had been identified during 
that exercise were still unresolved.
    For example, with regard to the National Response Plan, the 
use of incident designations, the role of the principal Federal 
official, and responsibilities of emergency support 
coordinators were not always well understood, causing confusion 
on the ground, which, in turn, impeded FEMA's initial response 
efforts.
    Under NIMS, the response demonstrated some positive 
features of the incident command structure, particularly in 
Alabama and Mississippi. Louisiana, on the other hand, had 
difficulty fully implementing an incident command structure 
with Federal, State, and local officials. Needless to say, the 
limited incident command structure in Louisiana significantly 
undercut response efforts at all levels of government.
    Many of the command and control problems that existed 
during Hurricane Andrew more than 13 years ago were the result 
of inadequate pre-disaster planning, training, and exercising 
of large-scale catastrophic type disasters. Unfortunately, the 
same could be said of Hurricane Katrina.
    Second, top officials of other Federal agencies need to be 
more actively involved in the planning, training, and exercises 
of their respective agency's disaster response plans. And DHS 
needs to do a better job of partnering with their Federal 
counterparts to ensure the efficient and effective delivery of 
disaster aid. We should not be creating protocols for NIMS or 
taking crash courses on the contents of the National Response 
Plan in the heat of the battle.
    The Department's most recent TOPOFF exercise, conducted in 
April 2005, highlighted a fundamental lack of understanding at 
all levels of government regarding the principles and protocols 
set forth in the National Response Plan and NIMS. Guidance and 
procedures defining how each function interrelates with one 
another were absent.
    DHS needs to develop operating procedures under both NIMS 
and the National Response Plan, and it needs to offer training 
on those procedures to all levels of government, including DOD.
    DOD participation is essential so that it may solidify its 
role and responsibilities under the National Response Plan to 
facilitate an enhanced understanding among the Federal, State, 
local, and nonprofit organizations that participate after a 
disaster. They must have a clear understanding what DOD's role 
is.
    It is imperative that every Federal agency, not just DHS 
and FEMA, maintain a readiness posture consistent with their 
responsibilities under the National Response Plan. That does 
not exist today.
    Furthermore, to effectively address disaster response, 
recovery, and oversight, Federal interagency data sharing and 
collaboration are a must. However, data sharing arrangements 
between FEMA and other Federal agencies to safeguard against 
fraud and promote the delivery of disaster assistance are not 
in place.
    Critical tasks, from locating missing children and 
registered sex offenders to detecting duplicate payments and 
fraudulent applications, have all been hindered because 
mechanisms and agreements to foster interagency collaboration 
do not exist.
    For example, we believe that pre-existing data sharing 
requirements or arrangements with the Social Security 
Administration to verify an applicant's Social Security number 
or the Postal Service to verify an applicant's address or 
residence, especially if the data can be shared in real time or 
on a real-time basis, would not only facilitate the delivery of 
assistance to disaster victims, but also it would be a major 
factor in preventing fraud, waste, and abuse in FEMA's disaster 
relief programs.
    Third, to effectively support requests for assistance and 
carry out its logistics mission, FEMA needs to incorporate 
asset visibility, automation, and standardization into its 
resource ordering process. FEMA is responsible for supplying 
commodities, equipment, personnel, and other resources to 
support emergency or disaster response efforts of affected 
States or localities. Therefore, FEMA's ability to track 
resources is key to fulfilling its mission.
    In response to Hurricane Katrina, Federal, State, and local 
officials continually expressed frustration with the lack of 
asset visibility in the logistics process.
    Officials indicated that they had ordered water, ice, and 
meals-ready-to-eat in quantities far greater than what was 
actually delivered. Yet when they attempted to determine where 
additional quantities were in the delivery process, they were 
told the commodities were simply in the pipeline.
    According to FEMA field officials, on average, Mississippi 
received less than 50 percent of the commodities that it had 
requested between August 27 and September 5, 2005.
    Similarly, during the 2004 hurricane season, when four 
hurricanes struck the State of Florida, when asked about the 
delivery status of requested ice and water, Federal logistics 
personnel told us they could only tell State officials and 
local officials that commodities were en route. In essence, 
they had no idea where the commodities were or when they would 
be delivered, only that they had been ordered.
    In a recent OIG report dated September 2005, we point out 
that FEMA's inventory management system provides no means to 
track essential commodities, such as ice and water. As a 
result, FEMA cannot readily determine its effectiveness in 
achieving specific disaster response goals and whether or not 
there is a need to improve.
    Fourth, FEMA needs to establish a common information 
management system to collect, consolidate, and publish 
disaster-related facts that can be used to ensure that critical 
needs are identified and met. Because it did not have a common 
information management system, FEMA had difficulty obtaining, 
verifying, and reporting basic disaster information during 
Hurricane Katrina, such as the levees breaches, the spontaneous 
sheltering of victims in the New Orleans Convention Center, the 
status of commodity deliveries, and the number of victims in 
shelters.
    Unreliable information and conflicting reports directly 
impacted the speed of the response and constrained the 
information that could be provided to disaster victims, the 
public, and the media. This problem is similar to the one that 
FEMA's OIG made in January 1993, just after Hurricane Andrew, 
when it recommended that FEMA develop an online information 
system to consolidate disaster information.
    Also, in April 2005, during the TOPOFF 3 exercise, DHS had 
difficulties in compiling and analyzing disaster information. 
And again, we recommended that DHS develop such a system. 
Information management is a recurring problem that requires 
long-term solutions.
    Another widely reported communication problem during 
Hurricane Katrina was the operability of telecommunications 
equipment. Others have testified before this Committee about 
the effects that Hurricane Katrina had on telecommunications 
lines, towers, antennas, and call centers.
    We support the recommendations by the White House task 
force to improve the planning and strategy for communication 
restoration and to develop a deployable communication 
capability within DHS. We also support strengthening FEMA's 
mobile emergency response support teams to surge for 
catastrophic disasters.
    However, when we look at communications operability, we 
need also to remember the issue of communications 
interoperability. During Hurricane Katrina, the need for 
interoperable communications equipment was overshadowed by 
basic operability. There just was no communications. All lines 
were down.
    Nevertheless, the lack of interoperability also hindered 
disaster response efforts, particularly with regard to search 
and rescue and law enforcement missions. As we learned after 
the September 11 terrorist attacks, the inability of first 
responders to communicate across disciplines and jurisdictions 
can lead to the tragic loss of life.
    Fifth, FEMA needs to do a better job of engaging or 
partnering with the national media in getting critical and 
potentially life-saving and life-sustaining information to 
victims in the affected area and to victims dispersed across 
the country. FEMA must work aggressively in partnership with 
the media to provide accurate and timely information to the 
public about the status of the disaster relief operations.
    A combination of problems--poor communications systems, 
conflicting situation reports, inadequate staffing, 
organizational confusion between the role of FEMA's Office of 
External Affairs, in the Department's Office of Public Affairs 
and a lack of coordination with Louisiana--all created a 
situation where FEMA's media affairs efforts were not as 
effective as it could have been. This, in turn, inhibited 
FEMA's ability to be proactive in its messaging, undermined 
public confidence in FEMA's operations, and diverted media 
attention from FEMA's victim assistance programs.
    Finally, I would like to comment briefly on the 
recommendations made in the White House report on Hurricane 
Katrina. The report identifies deficiencies in the Federal 
Government's response and presents lessons learned and 
recommendations for corrective action. All in all, we agree 
with and endorse the 17 critical challenges in the report.
    However, we have serious reservations with two of the 
report's recommendations affecting human services and housing. 
According to the report, the Department of Health and Human 
Services would take the lead for developing and coordinating a 
system to deliver human services and the Department of Housing 
and Urban Development would take the lead for the provision of 
temporary and long-term housing of evacuees.
    In my opinion, these recommendations, as proposed, may 
create a greater bifurcation in the timely and consistent 
provision of assistance to victims of disasters than currently 
exist. I believe that FEMA is best positioned to coordinate 
with Federal, State, and local governments, as well with 
nongovernmental organizations, to assist victims as they seek 
disaster assistance in transition from shelters to more 
temporary and longer term housing.
    FEMA has long-standing and established relationships, well 
over 30 years, with other Federal agencies, States and locals, 
and voluntary organizations to provide disaster assistance. 
Transferring these responsibilities to other Federal entities 
with little or no experience in coordinating government-wide 
disaster relief operations could hinder rather than help 
victims with their post disaster needs.
    Rather than redefining FEMA's role as only responsible for 
mass care and sheltering, I believe more attention and 
resources need to be focused on FEMA's coordination with its 
emergency management partners and its case management 
activities to facilitate and expedite disaster victims' 
recovery.
    I would like to make one last point before I close. The 
many recent reports and deliberations dealing with Hurricane 
Katrina have not included discussions about the importance of 
and need for improved disaster mitigation efforts. This element 
is critical as reconstruction efforts begin in the Gulf region.
    Mitigation eliminates or lessens the likelihood that a 
disaster can cause loss of life or serious property damage. 
Elevating homes in flood plains, building structures that can 
withstand hurricane-force winds, and restricting construction 
along the coastline are just a few examples of mitigation 
activities. Mitigation was a top priority for FEMA in the 1990s 
and resulted in measurable savings.
    As we implement the recommendations for improving the 
Nation's disaster preparedness, response, and recovery 
capability, we must not overlook the importance that sound 
mitigation projects and strategies can have on our national 
emergency management system.
    Madam Chairman, that concludes my remarks. I would be happy 
to answer any questions you or the Committee may have.
    Chairman Collins. Thank you both very much for your 
excellent testimony.
    Mr. Walker, I think you hit upon an absolutely key point in 
your testimony. Our investigation has clearly demonstrated that 
Katrina is all about a failure of leadership. A failure of 
leadership at all levels of government.
    And I think those who believe that the answer to the 
problems of Katrina is to simply transfer FEMA out of the 
Department of Homeland Security have missed the point that if 
you still have poor leadership and inadequate resources, you 
are going to have the same results.
    And I think your suggestions for a Level 1 official, for a 
person with overall responsibility to be deployed to the front 
line, hits on problems that occurred that would not be remedied 
by simply moving FEMA out of the Department.
    Mr. Skinner, you have been in an unusual situation because 
you have been with FEMA when it was a separate agency, and you 
are now IG of the overall Department containing FEMA. So I want 
to get your thoughts on this issue as well.
    One of my concerns is that if we move FEMA out of the 
Department of Homeland Security, we will be getting away from 
an all-hazards approach and that DHS will end up having to 
duplicate within the Department many of the same capabilities 
that FEMA would be providing for natural disasters outside of 
the Department. But could you give the Committee your 
assessment of this issue?
    Mr. Skinner. Yes, you are absolutely right. What we would 
be doing, in essence, is stovepiping our preparedness 
capability.
    There is a certain synergy that the Department brings to a 
disaster by having FEMA, Preparedness, CBP, ICE, and other 
functions within the Department, that is, all of these 
functions can be brought to bear under the leadership of the 
Department of Homeland Security. By taking FEMA out, we would 
lose a lot of that synergy that the Department can bring to 
bear.
    One point I would like to make, my experience when I was 
with FEMA: The problems that we experienced in Katrina are the 
same problems that we experienced when it was a standalone 
agency. They have been magnified now, only because of the 
magnitude of Katrina.
    Transferring FEMA out of the Department, in my opinion, 
would be a major mistake. We are simply transferring the 
problem. We need to address the problems that put us in this 
position where we failed in our response after Katrina.
    We definitely need, as Mr. Walker said, leadership. Over 
half of the leadership positions in FEMA right now are vacant, 
are being filled with acting positions. Over the years--and 
FEMA knew this--in the 1990s, there was a tremendous attrition, 
a loss of personnel, of key assets because of retirements that 
occurred between 1995 and 2005.
    We never prepared ourselves to replace that expertise. So, 
whether FEMA is outside of the Department or inside of the 
Department, that is still going to be a challenge that we need 
to deal with.
    The issue of preparedness is something else I would like to 
comment on. After Hurricane Katrina, we did a tremendous job of 
improving our capabilities through our preparedness activities. 
We developed a Federal Response Plan. We developed a property 
management system. We developed a disaster information 
management system. But they all had their individual flaws. We 
never did perfect them.
    Chairman Collins. You didn't mean after Katrina, I don't 
think?
    Mr. Skinner. I am sorry. After Andrew in 2003.
    Chairman Collins. Thank you.
    Mr. Skinner. We made tremendous progress. Then in the late 
1990s, we started to focus on mitigation so that we can prevent 
disasters from having a major impact. With regard to 
preparedness for a catastrophic disaster, that is something we 
never did do.
    Our bar was set at the Andrew level. It was never set for 
anything higher than that. I would suggest that if Katrina hit 
7 years ago, 8 years ago, when FEMA was a standalone agency, we 
would have failed just as miserably as we did today. We simply 
were not prepared at that level. We have not invested in 
catastrophic preparedness with the resources, the finances, the 
training, and the exercises.
    And to compound matters, we changed our Federal Response 
Plan to a National Response Plan, and we changed our incident 
command structure to the National Incident Management System, 
which had never been fully exercised. Also, we never trained 
our State and local partners or our Federal partners. This 
compounded the issue.
    Chairman Collins. That is a great segue to an issue that I 
want to ask Mr. Walker about. One of the issues that I think 
emergency managers at all levels of government are struggling 
with is how to define the Federal role versus the State role 
versus the local role? And what do we do when there is a mega 
disaster such as Katrina?
    As you know and as Mr. Skinner just said, the Department of 
Homeland Security never completed its planning for a 
catastrophe that overwhelmed State and local governments. How 
do we better define the roles of the players at all levels of 
government, and what specifically should we do differently to 
accelerate Federal assistance when there is a catastrophe that 
overwhelms the State and local level?
    Mr. Walker. Madam Chairman, a vast majority of natural 
disasters don't fall into the catastrophic category. Therefore, 
in most circumstances, I think you will find that agencies, 
whether they be State, local, or Federal, will not be 
overwhelmed. However, we have to be prepared for these 
catastrophic events.
    Based upon our work and based upon my personal 
conversations with the governors and the other officials, I 
think there is a clear feeling that State and local officials 
should be primarily responsible for dealing with natural 
disasters. However, with regard to large, especially 
catastrophic events such as Katrina, the Federal Government 
must be prepared in advance, not after the fact, to provide 
support and capabilities necessary to supplement what State and 
local agencies might otherwise have available to them.
    I think one of the other things that we need to do is that 
when we are learning the lessons of Katrina, and we are 
finalizing and revising the National Response Plan and other 
types of operational documents to try to make that a reality, 
we need to provide more clarity as to who is going to be 
responsible and accountable for what.
    We also need to link resource allocations to whether or not 
people actually have done what they need to do in accordance 
with the overall plan. One of the things that we can leverage 
to a greater extent is that if the Federal Government is going 
to provide assistance through grants or whatever, we make sure 
that certain conditions are met as a condition of receiving 
those funds.
    I will give you one example that deals with the recovery 
that is timely. State and local officials need to take the lead 
on determining what is going to be rebuilt, based on what 
standards in what locations. They are, however, looking for 
assistance from the Federal Government.
    But before significant funds flow, there needs to be a plan 
that the Federal Government can buy into. We should also 
condition some of our support based upon having that plan in 
place to provide incentives for people to do what otherwise 
needs to be done and appropriate accountability if they don't.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks very much, Madam Chairman.
    Thanks, Mr. Walker and Mr. Skinner, for very helpful 
testimony.
    I said in my opening statement that the government's 
response to Katrina was a national disgrace. But it is one 
that, hopefully, we can learn from. And it seems to me in your 
testimony and the exchange you have had with Senator Collins 
encourages me to believe that, generally speaking, we might 
explain the disgrace, the failures, in four categories.
    One was the enormity of the storm, of Katrina. The second 
was a failure of leadership. The third was a failure of 
organization on its various forms. And then the fourth was an 
inadequacy of resources. There may be others. And of course, a 
failure to prepare can come under all of those, inadequate 
organization, bad leadership, etc.
    On the first, I just want to say, which is the enormity of 
Hurricane Katrina, it was beyond what might be called the 
normal disaster. It was a catastrophe. We hope and believe that 
natural disasters of that immensity will not happen too 
frequently.
    But the sad and painful and real fact is that we live in an 
age of terrorism, and there are many terrorist attack scenarios 
on the United States that are catastrophic. And of course, the 
difference is that in most cases, particularly if our 
intelligence does not discover the plans in any sense before 
they are carried out, there is no warning.
    We had the National Weather Service warning us clearly 
here. History warned about this particular catastrophe. So we 
said here in this Committee room, in one of the earlier 
hearings, somebody said if terrorists had planted bombs at the 
levees around New Orleans and they had blown up the levees, the 
effects would have been relatively comparable.
    So we are living in an age, I want to say first, where we 
have to be ready to respond to catastrophes, and that generally 
means the Federal Government. You are absolutely right. But I 
want to set that aside and come back to it.
    If we are talking about a failure of leadership, a failure 
of organization, a failure of resources, as you have looked at 
it, I suppose we would all say there were failures in all three 
of those areas that caused the disgrace that was the 
government's response to Katrina. But if you had to prioritize 
it, what would you say was the most consequential cause of the 
disastrous response to this disaster--bad leadership, bad 
organization, or inadequate resources?
    And I ask that question because it may help us to shape our 
response to what we should do to make sure that the next time 
there is not such a disgrace. Mr. Walker, do you want to try 
that one first?
    Mr. Walker. It is tough to say which was the most 
significant. Let me say this. The thing that was the most 
shocking to me was the fact that for a type of natural disaster 
where we had advance warning, such as a Category 4 or 5 
hurricane, that we were somehow saying that since that was a 
known potential catastrophic event, that we would not be 
leaning forward and being as proactive as otherwise we might be 
in some other circumstance.
    Senator Lieberman. We agree. I mean, as the testimony we 
heard went on and on, that was probably the point of greatest 
frustration to anger because the warnings were clear and 
explicit.
    Mr. Walker. So my view is that was probably No. 1. The fact 
that we had a situation that we knew. It wasn't a matter of if 
it was going to hit, it was only a matter of where and when it 
was going to it. And yet we were not nearly as proactive as we 
should have been.
    Senator Lieberman. If I may put that into my categories, 
you correct me if you think I am wrong, that sounds to me like 
a failure of leadership?
    Mr. Walker. It clearly has to do with leadership, I agree. 
But it also has to do with the National Response Plan, which 
was my second category. The National Response Plan, this was 
the first time it had ever been tested.
    The Catastrophic Annex, there are still people debating 
whether or not the Catastrophic Annex was supposed to cover 
this type of event. I would argue whether it was supposed to or 
not, it should have.
    Senator Lieberman. Right.
    Mr. Walker. Common sense says that when you have more 
advance notice, you should be doing more sooner than otherwise 
you would do if you didn't have advance notice. So I would say 
leadership is an issue, but also the fact that we need to be 
leaning forward with regard to these types of activities to 
much greater extent.
    With regard to leadership, I would reinforce that different 
types and levels of leadership are necessary. In this 
particular case, in my view, based upon what I have seen, we 
did not have the Level 1 or higher strategic leadership that 
needed to be in place here.
    What happened was when the President called the Department 
of Homeland Security and designated the Secretary, the 
Secretary then delegated that responsibility to the FEMA 
director. The difficulty with that is it probably would have 
overwhelmed anybody in this circumstance. But the strategic 
type of activities need to be done by no lower than a Level 1 
official.
    Senator Lieberman. So, in this case, it should have been 
Secretary Chertoff?
    Mr. Walker. Presumably, it would have been Secretary 
Chertoff.
    Senator Lieberman. Designated by the President under 
executive order and implicitly by the Homeland Security Act as 
the key official to coordinate the Federal response to a 
disaster?
    Mr. Walker. Especially when dealing with agencies like the 
Department of Defense.
    Senator Lieberman. Right.
    Mr. Walker. You need to have a Level 1 official dealing 
with their peers in providing a strategic and integrated 
approach to meet the needs on the ground in the affected areas.
    Senator Lieberman. Let me go to Mr. Skinner because I have 
just got a couple of minutes. In addition to answering that 
question, let me pose one other to you.
    The need for the Federal Government to respond to a 
catastrophe is a very difficult need to organize to meet, and I 
want to ask you to talk about that a little bit. In other 
words, it requires a lot of standby. You can't, on one model, 
be staffed up fully in FEMA or DHS to deal with a catastrophe 
because, thank God, catastrophes don't come that often.
    And I wanted to ask you if you have any thoughts about how 
we should handle that. Is it just a question of preparing, 
training, exercising to bring a lot of different Federal 
resources, not ones that are directly in FEMA, but DOD, 
National Guard, Coast Guard, all of DHS, into the field at a 
moment of a catastrophe?
    Is there some other--for instance, somebody suggested to me 
the other day that maybe we would want to create a kind of 
``homeland security guard'' that trains on weekends and is 
ready to be summoned to a catastrophe. Maybe the National Guard 
should have a division that would be focused just on that.
    What thoughts do you have both about the first question and 
then about the one I have just asked?
    Mr. Skinner. That is the beauty of the NIMS, the National 
Incident Management System and the National Response Plan. It 
is very flexible in that we can grow it or we could shrink it, 
depending on what our requirements are.
    The important thing that we need to do is to be able to 
identify what all of our assets are. What can we bring to bear, 
depending on the nature of the event, whether it is a terrorist 
event, whether it is Katrina, or whether it is simply a 
flooding event in West Virginia. What resources can we tap 
into?
    They don't all have to be Federal resources. We could have 
pre-prescribed contracts.
    Senator Lieberman. Right.
    Mr. Skinner. What I refer to as ``call contracts.'' There 
is no liability to the government until we make the phone call 
and order something. Those should be in place. We need to 
define what types of contracts we need, what types of resources 
we will need from those contractors, and what type of 
commodities they can make available to us.
    Right now, we do not have a complete inventory in the 
Federal Government or in the private sector as to what 
resources we can bring to bear to different situations. That is 
very important.
    Exercising is very important. Training is very important. 
And it is just not exercising and training at the local level 
or at the lowest level possible. We need to get top officials 
within the Federal Government involed. When Secretary Chertoff 
makes a phone call to Secretary Rumsfeld, he has to understand 
and his chain of command has to understand how they can bring 
DOD assets to bear.
    Or if we contact the Department of Transportation, they 
should not be learning on the job. A lot of that has happened 
during Katrina. We also experienced that also in our TOPOFF 
exercises, that is, top officials, those that can make 
decisions, were not full, active partners or participants in 
those exercises. So, therefore, they were learning the ropes in 
the heat of battle.
    Senator Lieberman. OK. That is a very important and helpful 
answer that there ought to be a lot of pre-catastrophe 
arrangements with other agencies of the Federal Government to 
spring into action and contracts with private sector service 
providers to also spring into action.
    Incidentally, one change that in organization that has been 
talked about in response to Katrina is to move FEMA out of DHS. 
I agree with Chairman Collins and, I gather, the two of you 
that this makes no sense at all. There is a synergy in DHS. Why 
would you want to take FEMA away from the Coast Guard and all 
of the other agencies that can be helpful under the leadership 
of the Secretary in responding to a disaster, natural or 
terrorist?
    So I appreciate your statements, and I agree with them. 
Thank you.
    Mr. Walker. If I may, Madam Chairman?
    Chairman Collins. Yes.
    Mr. Walker. With regard to leadership and FEMA, I think one 
of the things that needs to be considered--not just for FEMA, 
but for selected other positions in government--is depending 
upon the nature of the position and depending upon the mission 
of the agency, we may want to have a PAS appointee in the 
position, but we may want to have statutory----
    Senator Lieberman. Define PAS for us.
    Mr. Walker. Presidential appointee with Senate 
confirmation. I apologize. I said don't use acronyms, and I 
used one. I apologize.
    You may want to have a PAS person heading FEMA, but you may 
want to consider statutory qualification requirements that an 
individual might have to meet. Second, you may want to consider 
a term appointment such that you have a pro who is going to be 
there as long as they do a good job for a reasonable period of 
time.
    I think this is a concept that we ought to be considering 
in government to a greater extent for positions that we want 
professionals to do who are politically acceptable, but who are 
first a professional rather than a politico.
    Chairman Collins. Thank you.
    Mr. Walker. I am not talking about any particular 
individual. I don't want to personalize any of this.
    Senator Lieberman. We all agree that this model has worked 
in the case of the comptroller general. [Laughter.]
    Mr. Walker. Thank you, Senator. I appreciate that 
endorsement.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chair.
    It has been fabulous testimony. My only comment to the last 
comment of Mr. Walker is that I think you have got to be 
careful. Rudy Giuliani may not have passed the qualifications 
test, but what about his leadership? And so, sometimes we 
channel ourselves in ways that say we want clearly at some 
level the folks in there who have the specific background. We 
have got to be very careful. There was a failure of leadership.
    And as I said, I use the mayor as an example. He did a heck 
of a job in responding to crisis. Didn't have a lot of 
emergency management background, but he had good leadership. I 
think we have to be careful about that.
    Mr. Skinner, you talked about things in the pipeline, en 
route. And one of the things that frustrates me a little bit is 
we, as consumers, when we buy something--I bought a pair of 
shoes at a store at the airport the other day, and I wanted to 
find out where they were, and it took me one phone call.
    FedEx can tell you exactly where things are. UPS can tell 
you where things are. Well, the Federal Government has greater 
resources than FedEx and UPS, and our consumer experience tells 
us that there is an expectation that, in 2006, we shouldn't 
have a situation where somebody can't tell you where something 
is en route.
    So is it a cost issue? It is certainly not a technology 
issue. Why isn't the Federal Government in a position to do 
what most American businesses can do today and tell you where 
something is when it is in the pipeline or it is en route?
    Mr. Skinner. Yes, I absolutely agree. I mean, FEMA is in an 
analog world or have analog systems, and we are in a digital 
society. They are, in fact, right now piloting a program that 
will allow us to be able to track our trucks and our 
commodities. As a matter of fact, FEMA experimented, I 
understand, with a little of that in Katrina. But it just did 
not go far enough, and we have a long way to go.
    There are a couple of issues I think that may be slowing us 
down: One, it may be financial, budgeting constraints; and, 
two, it may also be human resource constraints, that is, having 
people dedicated to updating our system so that they are in the 
21st Century.
    Senator Coleman. Well, I would hope that FEMA would sit 
down with, again, I use FedEx, UPS. We have had those folks 
talk to us.
    Mr. Skinner. I can say that Secretary Chertoff has made 
this one of his top priorities. He recognizes this issue and 
has already publicly announced that he is going to fix this. 
Hopefully, we can have this fixed before the next hurricane 
season.
    Senator Coleman. It is pretty basic technology in 2006.
    Mr. Skinner. It sure is.
    Senator Coleman. Mr. Walker.
    Mr. Walker. Senator Coleman, you make a good point. Let me 
just note that FEMA is not the only agency with this problem. 
The Defense Department has had a long-standing similar problem, 
and many times it is multiple legacy, non-integrated 
information systems. Everybody has their own independent system 
that they want rather than moving to a modern and integrated 
information system.
    Part of our challenge is not just financial and human 
resources, it is dealing with cultural barriers, and it is 
forcing people to move to a unified solution. In some cases, 
that might mean denying resources to wants and focusing 
resources to needs.
    Senator Coleman. I hope we move beyond that. I mean, to me, 
I just find it so stunning. A couple of weeks ago, I was at the 
border. I was at an Arizona military base and watched a UAV 
flying at 5 miles up in the air, 15,000 feet, shine a laser 
beam on an individual on the ground. To our agents, they were 
like lit up in a spotlight, and we can't track where ice is. 
And it just doesn't make sense to me.
    If I can, Mr. Walker, one of the things that you talked 
about and the point has to be made is in talking about the 
response, you talked about the total force, public sector, 
clearly at every level of government--State, Federal, local, 
county, and municipal. You talked about the nonprofit 
community.
    I was a former mayor, and I can tell you that in the last 
case with the private sector, when I was mayor, I talked about 
the three legs that kind of held us there were the public 
sector, the private sector, and the nonprofit. And my question 
is can you talk a little bit, very practically, about your 
vision of training?
    My concern is that are we going to set up some federally 
directed courses in which we are going to try--it would be very 
hard to go into St. Paul, Minnesota, with somebody from FEMA 
and pull together the critical players in the private sector, 
the public sector, and the nonprofit sector. They wouldn't know 
who they are. You may not get a response.
    Because I would like to see this happen, can you tell me 
your vision of how we make this actually work?
    Mr. Walker. I think if we look at what actually happened in 
Katrina, we will see that there were examples of Federal, 
State, local, private sector, and not-for-profit sector people 
working together to try to meet the needs of people. But in 
many cases, it wasn't pre-planned. In many cases, it was just 
people trying to do the right thing.
    My point is that there are capabilities that exist in the 
not-for-profit sector. There are capabilities that exist in the 
private sector such as logistical resources, etc., that we 
ought to integrate into an overall plan and that we ought to 
have lead players in each of the major areas who are going to 
spring into action in the event of a catastrophic event.
    This doesn't necessarily mean the Federal Government is 
going to be the lead. This could be part of the State and local 
emergency plans that they develop in coordination with the 
Federal Government. But I do think that there needs to be some 
exercising based upon the total force concept at some point.
    Keep in mind that some of the players who are involved here 
would not work in certain areas of the city and would not work 
at night. That is a gap that we need to understand up front and 
to be able to fill as appropriate in order to meet total needs.
    Senator Coleman. My concern then, my admonition here--and 
again, the vision is the right vision. But as we move forward 
that we don't make the mistake of saying we are going to have 
in place a requirement to bring together the private sector and 
nonprofit all together, but we don't do it in a way that is not 
very effective.
    That, in the end, we get the resource out to the folks at 
the local level, who have the capacity to do this, who know who 
the players are, who know how to make this work. And so, great 
concept. I just hope in implementation that we don't end up 
missing the opportunity.
    Mr. Walker. I think local government needs to be the lead. 
They are the closest to knowing who the key players are.
    Senator Coleman. I share that perspective. Thank you.
    And I do want to associate myself with the comments of the 
Chairman and the Ranking Member regarding this issue of FEMA 
and leadership. Michael Brown came before us and said when FEMA 
was placed in Homeland Security, it was doomed to failure. Yet 
we heard the Coast Guard, which is part of Homeland Security, 
and they didn't fail. And they pre-positioned, and they 
exercised leadership.
    And I think we need to be very careful about a rush to 
judgment about whether it is a structural problem here or the 
leadership problems and that we don't change things for the 
sake of making change. Thank you, Madam Chairman.
    Chairman Collins. Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Madam Chairman.
    We started this hearing at 9:30. I was the first one here. 
And it is now an hour and a half later, and I appreciated 
hearing all of my colleagues and their questions and their 
reviews, but I think it is important to watch the time as it is 
used because all of us have many other things to do.
    And I appreciate the testimony of the witnesses and the 
review by Senator Mikulski, which was succinct and to the point 
in describing what the problems are.
    And I ask you, according to a summary of the House 
Republican report earlier that presidential intervention could 
have sped up the response because the President is the one that 
has the capacity to cut through the red tape, if we can do it 
in fairly short fashion, what might the President have done, if 
we can think of a couple of things, at an earlier moment?
    Not to castigate the President, but to learn from this 
tragic experience that we have had. What do you think, Mr. 
Walker?
    Mr. Walker. First, on Sunday afternoon before the hurricane 
hit, there was a designation by the President of Secretary 
Chertoff to take the lead in this area. My view is, it should 
have happened earlier.
    I mean, we are talking about a circumstance here where the 
National Weather Service, in general, and Max Mayfield, in 
particular, was on the telephone--not just with regard to key 
Federal officials, but also State and local officials--saying 
that this is going to be a major catastrophic event. I think 
that we could have and we should have acted quicker than we 
did.
    Senator Lautenberg. Let me ask you a question that I think 
relates very directly. There are two things I have in mind 
here. No. 1 is the Federal Government encourages building by 
either its absence from participation in terms of what State 
and locals do because Federal Government picks up the bill. So 
if someone builds in vulnerable places, and we see it all 
across the country. I don't think any States are exempt. And 
then we know whether it is below sea level or whether a 
hurricane or some other disaster could take over, aren't we 
positioning ourselves in a way that says we are going to have 
disasters?
    And no matter how much money and how much thought, a 
disaster is an unanticipated event. You said ``catastrophe'' 
might not be the word to use in all of these. What defines a 
catastrophe? And should the Federal Government say, OK, we are 
going to supply the flood insurance and just build where you 
want, knowing darned well that some day there is going to be a 
problem there?
    Mr. Walker. First, Senator, I would say you have natural 
disasters, which come in different sizes, scopes, and 
magnitudes, most of which are not catastrophes. Some of which, 
like Katrina, are a catastrophe because of those factors.
    You raise a good point. I have testified once before the 
Senate, and I am going to be testifying again in the near 
future, on the National Flood Insurance Program, which is now 
$23 billion in the hole, largely because of Katrina and Rita. 
It is probably going to be added to our high-risk list in the 
very near future.
    One of the things we have to look at is what are we doing 
with regard to redrawing the new flood plain maps? What are we 
doing with regard in certain situations to potentially creating 
perverse incentives for people to build in areas where there is 
a very high likelihood that there is going to be devastation 
and that, ultimately, the cost may have to be borne by the 
National Flood Insurance Program?
    Now, for many years, the National Flood Insurance Program 
has been self-sustaining. But now it is $23 billion in the 
hole. Therefore, ultimately, the taxpayers are at risk for a 
potential bailout for programs like that.
    Senator Lautenberg. And I am not suggesting that we 
eliminate flood insurance. I am saying that where we have 
permitted it, where we have encouraged it, that is our 
responsibility. But in terms of future planning, I think that 
there has to be a look at what the vulnerabilities are for 
these places.
    Otherwise, another question is how about evacuation? We had 
a train sitting there, an Amtrak train sitting there, couldn't 
find enough people to fill it up for whatever reason.
    Don't we run a significant risk of compounding the danger 
from a disaster, be it a natural disaster or an attack by a 
terrorist group, by eliminating the fact that some of these 
rail lines are under terrific pressure and that we could 
accommodate a lot more of our post disaster need if we had 
facilities like that as part of a national security scheme?
    Mr. Walker. First, I would say that with regard to Katrina, 
clearly, there were major problems with the evacuation in the 
New Orleans area. Not just with regard to the poor, but also 
with regard to the special needs population. I am talking about 
hospitals and nursing homes in particular. Clearly, additional 
steps need to be taken to deal with that.
    But I also would respectfully suggest that we need to look 
at multiple modes of transportation, and not just modes of 
transportation that are owned by the government--Federal, 
State, or local--but also modes of transportation that may be 
available to the private sector, whether it is trucks, buses, 
or other types of transportation.
    This needs to be part of a more comprehensive and 
integrated strategic plan for dealing with catastrophes. I am 
familiar with your situation where there were certain resources 
available, but yet governments didn't get the people to the 
resources. Therefore, they were under utilized.
    Senator Lautenberg. A lack of training, a lack of 
leadership was quite apparent.
    What would you say, either of you, in terms of what kind of 
skills do we bring to the management of an agency like FEMA? 
How would you define it? Should it be military leadership, or 
what kind of people should we bring in there?
    Mr. Skinner. When we were most successful, our leaders were 
emergency management specialists, the people that had made 
emergency management a career, and it was a passion. It was 
something that they have done all of their lives.
    We are seeing that now beginning to degrade through 
attrition because people are now leaving the Federal Government 
and retiring. We have not adequately trained and brought up 
those behind them to make sure that as leaders leave, they can 
be replaced. So it certainly is someone with emergency 
management.
    Senator Lautenberg. But Mr. Skinner, how about those that 
we bring in? Have we generally seen the kind of skills that we 
like to see at the top of an agency like that, this crisis 
management agency?
    Mr. Skinner. Such as FEMA?
    Senator Lautenberg. Yes.
    Mr. Skinner. I would suggest that leadership can be defined 
many different ways, and you don't want to pigeonhole an 
individual, saying because you have never worked a disaster, 
therefore, you are not qualified to lead FEMA. And I think we 
would be leaving a lot of potential leaders out.
    Senator Lautenberg. Yes, but they could have been trained.
    Mr. Skinner. Yes. Clearly, the people directly below them, 
and I suggest that includes all of our regional directors who 
are now political, that these people could be or should be 
career emergency management types.
    Senator Lautenberg. I have a last question here.
    Chairman Collins. I would be happy to give the Senator 
additional time to do another question even though he is over 
his time. Please go ahead and proceed.
    Senator Lautenberg. Well, Madam Chairman, our Ranking 
Member ran 4 minutes over, and there was no regard for the 
clock.
    Chairman Collins. There was.
    Senator Lautenberg. So I don't want to be rude, but Mr. 
Walker, has GAO encountered any problems in obtaining access to 
the documents and the people in the Executive Branch that it 
needs to speak with in its investigation?
    Mr. Walker. We have gotten most of what we have asked for, 
but not all, Senator. I think part of that is because there are 
multiple investigations that have been going on at once and 
that DHS is somewhat overwhelmed.
    But I can assure you that I will let you and the Chairman 
and the Ranking Member know if we experience a problem that we 
don't believe will be satisfactorily resolved.
    Senator Lautenberg. I would appreciate that. Thank you.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman. Thank you again, 
and the Ranking Member, for your leadership in holding these 
hearings. It has been absolutely superb and really critically 
important to the future well-being of our country.
    Mr. Walker, you stated a little bit earlier that you 
thought that the presidential designation of the point person 
should have come earlier. You also testified, I guess, to the 
House that, as you had recommended in 1993, you continue to 
believe that a single individual directly responsible and 
accountable to the President must be designated to act as the 
central focal point to lead and coordinate the overall Federal 
response in the event of a major catastrophe.
    I thought that when we passed the Homeland Security 
Department bill that we actually did that designation so that 
it is in law. Whether the President was late or not late and 
whether or not there was any formal designation at all, the 
Title 1 of the Department of Homeland Security Act specifies 
that this is the primary mission of the Department, to act as--
actually, using the same words that you used--a focal point 
regarding natural and man-made crises and emergency planning.
    And that is what the presidential directive also says in 
the Homeland Security Presidential Directive, HSPD-5. It says 
the Secretary of Homeland Security is the principal Federal 
official for domestic incident management. Now why should there 
need to even be a wait for a designation? Why isn't that 
automatic?
    Mr. Walker. I am familiar with that provision, Senator, and 
I think you make a good point. That, in theory, has already 
been done.
    From a practical standpoint, Senator, what I would 
respectfully suggest is while that is hard-coded in the law and 
in theory should not require any special action by any 
individual, I would respectfully suggest that by the President, 
whomever that person might be, getting involved at the outset, 
making it clear that this is the case, such that this 
individual--be it the Secretary of DHS or whomever it might 
be--has got the affirmative backing of the President at that 
time and that communication not only goes to the Secretary of 
DHS in the circumstances, but all other Cabinet-level 
officials, so that they understand that this person is 
operating on behalf of the President.
    I will tell you this, Senator, it is very clear to me in 
some of the conversations that I have had and the documents 
that I have seen that there were expectation gaps and 
miscommunications that took place between State and Federal 
officials with regard to resource requests.
    Senator Levin. Was that because of any doubt as to who it 
was that was the federally designated focal point for 
management of this disaster?
    Mr. Walker. Yes.
    Senator Levin. There was doubt in people's minds, despite 
the fact that there is a law?
    Mr. Walker. Well, the State officials, of course, wouldn't 
necessarily be as familiar with a Federal law. I am talking 
about State officials in communicating with Federal officials.
    Senator Levin. So there is a purpose to be served by the 
President making public what is already in the law in terms of 
everyone understanding what they should know, but which, 
apparently, there is some doubt about. But in terms of both his 
designation on Sunday or Saturday, whenever that was, and the 
law, there is no doubt where the responsibility focal point lay 
in this case. Is that right?
    Mr. Walker. Under the current law, under the Homeland 
Security Act, it is my understanding it is the Secretary of the 
Department of Homeland Security.
    Senator Levin. So that when we talk in abstract about 
``failure of leadership,'' the ultimate point for leadership 
under law and under the reminder of the President on Saturday 
or Sunday, whenever that was, is the leadership had to come 
from the head of the Department of Homeland Security?
    Mr. Walker. I think there is a shared responsibility for 
absence of leadership, but you are correct. That is what the 
law says, Senator.
    Senator Levin. OK. Now in terms of the coordination of the 
National Guard and active duty forces, and this is an area 
which all of us are on the Armed Service Committee, so we have 
a particular interest in this. There is a lot of uncertainty 
and confusion in Katrina as to the role of the National Guard, 
both in terms of who would be in charge of the National Guard 
in Louisiana and from other States, what their status was, 
whether it was going to be coordinated, who would command them, 
and so forth.
    The National Response Plan says that ``National Guard 
forces are providing support to the governor of their State and 
are not part of Federal military response efforts.'' Now I 
assume that applies to the National Guard forces from any State 
that come in to a State under the agreement which the governors 
have reached.
    So we have in our National Response Plan a statement that 
our Guard forces are not part of the Federal military response 
efforts, but they are providing support to the governor. It 
seems to me, and I wonder if you would react, that the National 
Guard response was poorly integrated here. There was no 
coordination. Unclear command for a length of time. And that it 
is essential that they be integrated in the plan or that a 
pathway be clear and automatically triggered for our National 
Guard forces to be integrated with the active duty response to 
comprise an overall Federal military response.
    I would like it if both of you or either one of you would 
comment on that?
    Mr. Skinner. You are absolutely right. That did create 
problems, particularly in Louisiana. The National Guard is an 
asset of the State, 99.9 percent of the time that is not ever 
going to be a problem because we don't bring in the military, 
or the Department of Defense.
    In this case, we did bring them in. However, we do not have 
guidelines. We do not have procedures. Nor had we exercised the 
two together so that they would know in advance what their 
individual roles would be.
    Yes, there were duplication of effort. Yes, they were 
bumping into each other occasionally. Yes, there was no clear 
lines of communication. And yes, there was no communications 
interoperability, that is, their systems could not even 
communicate.
    Senator Levin. And the Northern Command was not integrated 
into this process because, ultimately, there were active duty 
forces which were deployed.
    OK. Mr. Walker, I wonder if you would quickly comment?
    Mr. Walker. I will quickly comment. First, the National 
Guard is an integral part of the total force. With regard to 
the four States that were affected by Katrina and Rita, it is 
my understanding that only Louisiana requested and, therefore, 
received active duty support. All four States used National 
Guard troops not just from their State, but in some cases, 
because of the interstate compact, they also received troops 
from other States.
    I will tell you that the governors unanimously felt, the 
four that I spoke with, that they are in charge of the National 
Guard. That to the extent that the National Guard cannot handle 
it, then the active duty should be a supplement to the National 
Guard, not a substitute for the National Guard. But I agree 
that we need to have clearer definition and more effective 
integration as a result of learning from this experience.
    Senator Levin. Well, to say point blank that they are not 
part of a Federal military response effort, it seems to me, is 
an overstatement under certain circumstances.
    Mr. Walker. I think what that is intended to mean, Senator, 
is that the National Guard works for the governor.
    Senator Levin. Well, that is clear.
    Mr. Walker. Right. Therefore, not that they won't be part 
of it, but they won't be deemed to be Federal.
    Senator Levin. I understand that. But to say they are not 
part of something when they have to be coordinated and at some 
point may become part of--as a matter of fact, under certain 
circumstances, they will be part of if they are federalized.
    But, in any event, my time is up. I would only make a 
request, because my time is up, for the record that you tell us 
how we can do----
    Chairman Collins. Feel free if you would like to proceed.
    Senator Levin. Your good nature, I appreciate that. But I 
really have been troubled by the fact we have had so many 
missing children and missing adults not accounted for. We have 
had 158 unresolved cases of children missing, 2,800 unresolved 
cases of adults missing. We have got to do better in terms of 
just keeping track of people.
    This tragedy is immense for all kinds of reasons. But the 
idea that we still have people that are unaccounted for in 
these numbers is totally unacceptable. A lot of those people, I 
think, hopefully, all of them, but a lot of them are alive 
somewhere, but unaccounted for.
    And any suggestions that you have for the record, if you 
haven't looked into this, if you would. There is a major 
missing link here, at least one. The process in place for law 
enforcement to obtain information from FEMA's disaster 
assistance files is inadequate according to, I believe, your 
report, Mr. Skinner?
    Mr. Skinner. That is correct.
    Senator Levin. Because of FEMA's rigorous guidelines. There 
is something in those guidelines which make it difficult for us 
to track missing people. And if you would make some suggestions 
for the record as to how those guidelines might be amended so 
we don't run into this ever again, it would be appreciated.
    Mr. Skinner. Yes. We have a review under way, and you will 
be receiving a report shortly.
    Senator Levin. Thank you. I appreciate that.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    I want to thank our witnesses from this panel for their 
excellent testimony. We all have so many other questions we 
would like to ask you, and I am sure some will be submitted for 
the record, and we will continue to have discussions with you. 
But since we have a vote at 11:30, I am going to proceed to the 
next panel. Thank you so much.
    I would now like to welcome today's second panel of 
witnesses. Bruce Baughman is the President of the National 
Emergency Management Association and the Director of the 
Alabama State Emergency Management Agency. Mr. Baughman served 
as Director of the Office of National Preparedness from 2001 to 
2003 and, prior to that, was FEMA's Director of Operations for 
a number of years.
    I would note for the record that Mr. Baughman visited me 
with Maine's emergency management director, and I was so 
impressed with his background and his insight that I asked my 
staff to be sure to invite him for this hearing. We are very 
pleased to have him here today.
    I am also very pleased to welcome our other two 
distinguished witnesses. Frank Cilluffo is the Associate Vice 
President for Homeland Security at the George Washington 
University and is Director of the Homeland Security Policy 
Institute at the university. He joined G.W. from the White 
House, where he served as special assistant to the President 
for homeland security.
    And finally, we are very pleased to have with us Dr. Herman 
Leonard, who is the George F. Baker, Jr., Professor of Public 
Management at the Kennedy School of Government at Harvard 
University and Professor of Business Administration at the 
Harvard Business School. His current research concentrates on 
crisis management, corporate social responsibility, and 
performance management.
    As I have indicated, we are swearing in all of our 
witnesses throughout this investigation. So I would ask that 
you all stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    The Witnesses. I do.
    Chairman Collins. Thank you. Mr. Baughman, we are going to 
begin with you.

    TESTIMONY OF BRUCE P. BAUGHMAN,\1\ PRESIDENT, NATIONAL 
   EMERGENCY MANAGEMENT ASSOCIATION, DIRECTOR, ALABAMA STATE 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Baughman. Thank you, Madam Chairman, Members of the 
Committee, and Ranking Member Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baughman appears in the Appendix 
on page 132.
---------------------------------------------------------------------------
    I appreciate having the opportunity to testify before the 
Committee on these important issues. As the Chairman mentioned, 
I am Bruce Baughman. I am Director of the Alabama Emergency 
Management Agency. I am also the President of the National 
Emergency Management Association (NEMA), which represents 
emergency managers throughout the country, District of 
Columbia, and the territories. So I will be speaking from a 
NEMA perspective.
    I do want to mention that prior to my appointment in 
Alabama, I did serve, as the Chairman mentioned, as director of 
the Office of National Preparedness within FEMA and the 
director of operations within FEMA. In that position, I was 
responsible for over 100 disasters to include the World Trade 
Center, Oklahoma City bombing, the Pentagon, and numerous 
hurricanes.
    I was also responsible for and primary author of the 
Federal Response Plan, which is the precursor to the National 
Response Plan, which, in fact, was the operative plan in FEMA 
up until 3 years ago, when it was superseded by the National 
Response Plan. All in all, I bring over 32 years of experience 
in emergency management to the table.
    In the last few months, we have seen all the finger-
pointing relative to who was responsible for Katrina. At this 
point in time, what I would like to see is an effort to move 
the country forward to resolve some of the problems 
immediately. My concern is we are about 80 days out from the 
advent of hurricane season, and we don't have any of the fixes 
in place yet. So what I am looking for is to get some fixes in 
place.
    To do this, however, we need to include all the members of 
the team--Federal, State, and local. I think we have heard time 
and time again that there were failures at all levels of 
government. However, this collaboration can't become hamstrung 
by unfunded mandates and unnecessary Federal strings tied to 
funding aimed at State and local emergency management's 
preparedness efforts.
    It is interesting, every couple of decades we have a 
disaster like Hurricane Andrew a few years ago, and we see the 
same recommendations coming up over and over again, as Senator 
Mikulski mentioned this morning and others. Sometimes I 
question our ability to step forward with a national plan to 
resolve those and to have some consistent Federal policies and 
funding in that area.
    Emergency management is almost like the military was up 
until the Gulf War. In between wars, we kind of let it atrophy. 
And then when we need it, we try to throttle it up. Emergency 
management can't work that way. The main player in this is 
FEMA. Unfortunately, in the last couple of years, we have stood 
by and watched FEMA become a shell of its former self.
    At this point, we are at the same point as we were after 
Hurricane Andrew in 1992, questioning organizational 
structures, leaderships, role of Federal, State, and local 
government, and the role of DOD. When FEMA was included in DHS, 
the agency was not protected by the firewall similar to those 
that protected the Coast Guard and Secret Service.
    Somebody mentioned today the Coast Guard performed well. I 
think Senator Coleman did. However, their basic structure, the 
basic structure of Secret Service was not messed around with 
prior to Katrina. Preparedness was, in fact, pulled out of 
FEMA.
    Several things that I think resulted in this was the FEMA 
director lost his direct coordinating relationship with the 
President. Preparedness and preparedness grant programs, such 
as the emergency management performance grants and the fire 
grants, were pulled out of FEMA. The agency experienced 
Department-wide hiring freezes, which did not allow them to 
hire in key critical positions at a time that they needed to. 
There has been a reprogramming of FEMA dollars for homeland 
security that has had a major impact on FEMA's budget.
    As a matter of fact, today, we are talking about an agency 
that is fulfilling its post-September 11 mission with $63 
million less than what it had in 2000 in its 2006 budget. Yet 
no agency is more statutorily qualified and structurally 
qualified than FEMA to help our Nation respond. FEMA had the 
direct-line relationships with State and local governments 
through its preparedness grant programs, which the Stafford Act 
authorizes.
    FEMA is the only agency authorized under the Stafford Act. 
Reorganization Plan No. 3 issued in 1978 gave FEMA the 
responsibility for all functions of emergency management and 
response. FEMA is and should be the agency of choice to 
coordinate the functions of the Federal Government in response 
to disasters, regardless of cause.
    FEMA currently has the ability to tap into the first 
responder community to build relationships in training and 
exercises. They also have the ability to tap into the expertise 
and the assets of other Federal agencies. They were given that. 
That has been practiced and should have happened during 
Hurricane Katrina.
    However, these areas need to be strengthened. There needs 
to be a greater focus on all-hazards response and one for 
catastrophic disasters. FEMA recognized this 10 years ago and 
started moving in that direction. However, funding was not 
provided to get catastrophic plans in place to deal with this.
    As Senator Mikulski said this morning, the time to stop the 
endless reorganization should be over. We need to have a 
systematic process in place to improve the agency's and the 
Nation's ability to respond to all kinds of disasters. We look 
forward to working with Congress in coming up with a structure 
that will meet that requirement.
    In any organization, leadership is a critical ingredient. 
However, when we were talking about FEMA, several reforms need 
to be made to ensure the FEMA director is successful. 
Regardless of where FEMA is located, NEMA has recommended that 
the FEMA director has a direct reporting relationship to the 
President.
    Now this relationship could be structured like the Chairman 
of the Joint Chiefs. During times of war, even though the 
Chairman of the Joint Chiefs is under the Department of 
Defense, during times of war, he reports directly to the 
President. We suggest that there might be a similar 
relationship in reporting to the President by the director of 
FEMA during times of crisis.
    Other things that we recommend is that the director of FEMA 
have emergency service or emergency management or similar 
related experience. Senator Coleman mentioned this morning that 
Mayor Giuliani wouldn't qualify meeting that criteria. I dare 
say that Mayor Giuliani responded to dozens of disasters before 
he actually responded to September 11 and gained a lot of 
experience through that.
    The candidate for the job ought to have executive-level 
management experience, governmental administration and 
budgeting, an understanding of legislative process, and most 
importantly, demonstrated leadership. More congressional 
consideration and scrutiny should be given to the nomination 
process to ensure that the nominee meets established criteria. 
And a fixed term of appointment of not less than 5 years should 
be considered, similar to the model for the FBI director.
    Finally, a vetting process should be established that 
includes a role for input by emergency management constituent 
organizations similar to the American Bar Association does in 
looking at judicial nominations.
    Further, I personally believe that the true all-hazards 
grant program should be established within FEMA. That gives it 
a direct relationship with State and local government. 
Currently, FEMA does not have that. That has been pulled out 
and put over in the Preparedness Directorate.
    Let me talk a little bit about the role of DOD in disasters 
since I came up this morning. NEMA does not support an 
increased role for active duty military in disaster response. 
The Nation's governors have direct and legal authority for the 
protection and safety of their citizens. The appropriate role 
for active duty military is to provide assistance and support 
to civilian authorities.
    The National Response Plan identifies DOD as a support 
agency. NEMA's position is in line with the National Governors 
Association policy. The same issue was raised following 
Hurricane Andrew, and the 1993 National Academy of Public 
Administration report that Senator Mikulski mentioned this 
morning that was completed for Congress did not recommend an 
increased role for DOD.
    Let me talk about the relationships of State and local 
government. The Federal Government should never become the 
first responder. It should remain focused on providing a 
stronger funding for preparedness, emergency response, 
maintaining capability, and coordinating Federal resources that 
can be drawn upon in a catastrophic event.
    The Federal role is in support and coordination function 
and assists with resources, expertise, and response 
capabilities that assist State and local governments when they 
are overwhelmed. It is not their duty to become the first 
responder.
    Federal efforts should be directed at augmenting State and 
local operations, never superseding the governor's 
responsibility. The most important and critical component for 
reform is funding. And I would like to use my State as an 
example.
    Funding for a natural disaster is just not there. In my 
State alone, we get $28 million to prepare our State, six 
counties in our State, for a chemical stockpile incident. We 
get $4.5 million to prepare our State for a nuclear power plant 
incident. I get $26 million to prepare the State to respond to 
a terrorist event. I get less than $3 million to prepare the 
State for natural disasters. Yet our State has been hit 31 
times with presidential disaster declarations in the last 10 
years.
    EMPG is, in fact, the most important and the only program 
right now in the Federal arsenal that deals with all-hazards 
planning. It is the only one that allows State and local 
emergency management to deal with natural disaster 
preparedness. Right now, this year, the Administration in their 
budget proposes slashing that by $13 million, which means that 
it will be funded at $170 million.
    We have spent $3.5 billion in the last 2 years dealing with 
responding to a terrorist event, and so we are only spending 
$170 million for all 56 States and territories to deal with 
natural disaster preparedness. Something is wrong.
    National Response Plan. I recently sent the Chairman and 
Ranking Member a letter regarding the need for changes to the 
National Response Plan. Some of our suggestions we hope you 
will consider in your upcoming report.
    Let me just cut to the chase and get to a couple of things 
that I think are important with the National Response Plan. 
First off, the Federal coordinating officer, which is spelled 
out in the National Response Plan, must have the authority on 
the ground to carry out the responsibilities of the position.
    The FCO's authorities and responsibilities are clearly 
delineated in the Stafford Act. The statute outlines the 
functions and the appointment of the FCO. The NRP needs to 
follow the Stafford Act. These authorities empower the FCO to 
serve on behalf of the President in the declared area.
    And I might mention that during the 1990s, what we did, we 
talk about having a Level 1 Cabinet position, James Lee Witt as 
director of FEMA was, in fact, Cabinet status. In the field, 
the Federal coordinating officer on a large disaster like 
Hurricane Katrina was an experienced senior executive out of 
FEMA headquarters with a trained team. It wasn't a pick-up team 
like FEMA did during Katrina.
    I headed up one of those teams. We had three of them with 
125 personnel that were trained, that knew where to go to get 
the assets from the other Federal agencies and knew what they 
were doing.
    The role of the principal Federal official needs to be made 
clear. If it is maintained, we need to delineate between what 
the role of the principal Federal official is and the FCO. 
Basically, in Louisiana, we had two people in charge. We had 
the principal Federal official, and we had the Federal 
coordinating officer. And it wasn't real clear what the roles 
and responsibilities of each were.
    The NRP should maintain the ESF structure. The ESF 
structure has been there since 1994. It is reflected in the 
National Response Plan. There is some talk, my understanding, 
within DHS about doing away with the emergency support 
functions within the plan itself. We are opposed to that. The 
emergency support functions clearly delineate within the plan 
what the responsibilities are of the various agencies that FEMA 
can tap into.
    And last, it is unclear as to what a declaration of 
national significance gets you. There is presidential disaster 
declaration. I am not sure legally when the Secretary declares 
an incident of national significance what that does, what more 
that brings to the table. So that needs to be clarified.
    In conclusion, I think the Congress needs to look for 
innovative ways to address emergency management needs in this 
post-September 11 environment. We must immediately influx the 
system with resources and innovation in order to face the 
challenges of the day.
    I leave you with a statement from the 1993 NAPA report. 
``Without bold action, America's frustration with the 
timeliness and quality of governmental response to natural 
disasters will very likely continue.''
    Federal, State, and local governments must have adequate 
funding for baseline emergency preparedness so that exercises 
and training can ensure that plans and systems are effective 
before a disaster. And again, you don't want to exchange 
business cards in the middle of a disaster.
    I thank you for this opportunity to testify and look 
forward to taking any questions.
    Chairman Collins. Well said. Thank you for your testimony.
    We are more than half way through the period for a roll 
call vote. So we are going to have to recess the hearing for 15 
minutes. We will return in 15 minutes to resume with Mr. 
Cilluffo's testimony.
    Thank you.
    [Recess.]
    Chairman Collins. The Committee will come to order.
    Again, I apologize to our witnesses. Unfortunately, we 
can't control the floor activity today, and ironically, it is 
on a bill, the lobbying reform bill, that came out of our 
Committee. So we are really pulled in two directions today.
    Mr. Cilluffo, we will now proceed with your statement.

TESTIMONY OF FRANK J. CILLUFFO,\1\ ASSOCIATE VICE PRESIDENT FOR 
     HOMELAND SECURITY, DIRECTOR, HOMELAND SECURITY POLICY 
          INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Cilluffo. Thank you, Madam Chairman. Thank you for the 
opportunity to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cilluffo appears in the Appendix 
on page 140.
---------------------------------------------------------------------------
    Let me echo everyone's sentiments in that the Committee is 
to be commended for its comprehensive and bipartisan hearings 
into the public and private sector responses to Hurricane 
Katrina. These hearings, I think, are truly vital to further 
developing the Nation's preparedness and response policies.
    Once again, we find ourselves evaluating and debating 
national preparedness policies through the lens of the most 
recent catastrophe. The pendulum has swung from a post-
September 11 focus on terrorist attacks back to natural 
disasters.
    Katrina's impact was devastating, and our natural reaction 
is to focus on preventing a repeat of events. And we must. The 
fulcrum has shifted, and what was primarily a focus on 
preventing and preparing for terrorism following September 11 
has given way to an equally intense focus on catastrophic 
natural disasters.
    While perfectly understandable, we need to rebalance the 
scales and foster a culture of preparedness that is truly all 
hazards and risk based in nature. Preparedness is not an 
either/or proposition. We can't focus on one to the exclusion 
of the other. We need to plan for and prepare for all hazards 
and build our capabilities to respond to the widest possible 
threats.
    We need to ask ourselves two fundamental questions. What 
are the end-state capabilities and capacities needed to meet 
the needs of our customers? And how is success measured, and 
how is it defined?
    The need for a scalable and agile response is a given. When 
the President or a governor turns to the cupboard in time of 
crisis, he or she must not find it bare. Response is response 
is response is response. At the end of the day, we are talking 
about execution and enabling those on the front lines to 
respond effectively. What matters is saving lives, not the 
color of uniform of the men and women doing so.
    Let me take a moment to address the issue of where FEMA 
needs to fit into this effort. Outside of this hearing room, as 
you eloquently laid out, Madam Chairman, the ongoing debate has 
been where FEMA sits and fits on the Federal organizational 
chart. While well intended, I believe that stripping FEMA from 
DHS is a politically expedient ``quick fix'' that does not 
advance our national preparedness and response and, in fact, 
obscures the real issues.
    In my opinion, to re-create FEMA as an independent agency 
further obfuscates and bifurcates an already too complex 
system-of-systems approach. To have State and local 
governments--and we need to look at it from the back end--to 
have State and local governments, and first responders plug 
into one system to respond to bad weather and another system to 
respond to bad people is unrealistic. There is no reason to 
have competing systems in an environment of limited resources.
    The problem is not really one of organizational design. The 
requisite policy and law exist. The challenge is one of 
management and leadership. FEMA supports a system of systems. 
It is part of an all-hazard preparedness team. Therefore, the 
debate should not center on FEMA. It should be focused on what 
is needed from the customer's perspective, those on the front 
lines charged with the awesome responsibility of turning 
victims into patients and survivors.
    There are numerous customers with different needs. Disaster 
victims, first responders, State, and local governments, NGOs, 
and the private sector. What they have in common is the need to 
receive the right thing--be it service, piece of equipment, or 
support personnel--at the right time and in the right place.
    This requires inter- and intra-agency coordination among 
all levels of government and the private sector. Therefore, 
form must follow function. Over the longer term, the Committee 
may want to consider integrating the response and recovery 
missions into the newly established Preparedness Directorate.
    For this morning's discussion, I would like to offer three 
recommendations. First, our national preparedness and response 
system must be based on end-state capabilities and outcomes to 
support State, local, nongovernmental, and private sector 
customers. And the system must be requirements driven.
    As General Dwight Eisenhower once said, ``In preparation 
for battle, I have often found plans to be useless, but 
planning to be indispensable.'' This is not to say that there 
shouldn't be plans. The challenge is to turn the NRP, the 
national preparedness goal, and State plans into living, 
breathing documents.
    Only through unified planning, training, and exercising can 
the requisite capabilities and capacities be identified and 
developed. The NRP must be scalable as well as flexible and 
agile, able to morph and adapt to new technologies, new 
threats, and new scenarios.
    We need to empower those on the front lines, State and 
local government officials and first responders, and translate 
the strategy from where it is now at the 10,000-foot level all 
the way down to the ground, down to the muddy boots.
    To pick up on one of Senator Lieberman's comments earlier, 
I think you are absolutely right. We can't look at this as 
break glass when something bad happens. What we really need to 
be able to do is ramp up from the ordinary to the 
extraordinary. If you are not dealing with it every day, you 
are not going to be able to deal with it in a time of crisis.
    Everyone involved in supporting our response efforts must 
be fluent in the language of NIMS. The bottom line is 
understanding who has authority, where, when, and to what 
extent. And there are technical challenges. We must have 
robust, redundant, and reliable communications infrastructure. 
Before we have interoperability, we need operability. We need a 
dial-tone, if you will, and I think that is absolutely crucial.
    This Committee has also recognized the importance of 
integrating the private sector and its sophisticated supply 
chains and extensive resources into preparedness and response. 
As we saw following Katrina, we need to do a better job of 
this. The Business Roundtables' innovative Partnership for 
Disaster Relief is off to a promising start, matching corporate 
donations of personnel, equipment, and funding to domestic and 
international relief efforts.
    Hurricane Katrina also highlighted the need for government 
agencies and NGOs to take a page from the private sector 
playbook--FedEx, UPS, Wal-Mart, and DHL. As Senator Coleman 
raised, when it comes to nimble, timely, and effective supply 
chains, I think it is fair to say that FedEx ran circles around 
the Feds, and that is, in large part, due to its supply chain 
infrastructures.
    Similarly, the military model offers us a number of 
applicable operating principles. Underlying the capability 
outcomes approach, there needs to be a requirements system 
based on identifying the need rather than specifying the 
request. For example, instead of asking for 30,000 MREs to feed 
10,000 people three meals a day, a requirement-based system 
would state the need to feed 10,000 people for a day and 
achieve that in whatever means possible.
    Also, as Senator Lieberman mentioned, the Coast Guard was a 
stellar performer during Katrina. The reason why is that it 
functions on a daily basis as a true interagency joint asset. 
The Coast Guard thinks purple every day of the year. They have 
been part of the military. They have had to deploy and be part 
of mass mobilizations, and they couldn't compete with the other 
services. So they always found ways to add value within the 
military structure.
    And the challenge of successfully executing interagency 
coordination, as we know, is age old. Although we shouldn't 
transpose, and I agree with Mr. Baughman, a military model into 
the civilian context wholesale, there is merit in looking to 
the military context in this case.
    The Goldwater-Nichols Act in particular of 1986, which 
reorganized DOD and institutionalized the concept of jointness. 
The structure was streamlined, unified, and budgets were 
ultimately realigned accordingly. It seems to me that we need a 
Goldwater-Nichols equivalent for the homeland context. And not 
only at the Federal level, but also between and among States 
themselves.
    Second, I recommend that DHS be regionalized, an issue I 
did not hear discussed this morning, for the dual purposes of 
empowering those on the front lines to act and clarifying the 
role of the Federal Government. Effective response cannot, 
cannot, cannot be micro managed from Washington.
    As a practical matter, the vast majority of the disasters 
are responded to by State and local governments, with the 
Federal Government stepping in to provide support in limited 
circumstances. It only makes sense to push decisions closer to 
the action, where situational awareness is most acute and local 
knowledge is greatest. This is most significant in the fog of 
war and in the fog of disaster.
    Only by marrying up situational awareness with the 
authority to act do we create a solid foundation for a truly 
effective and integrated national system of response. As Mr. 
Baughman said, we should not be exchanging business cards on 
game day. This structure needs to be in place now. This is 
spring training. So that working relationships have been forged 
and plans have been exercised, tested, and revised. And most 
importantly, trust can be built and expectations gauged.
    A regional approach best serves these needs. In fact, 
regionalizing our national preparedness system is the very 
linchpin that connects all of the elements of our preparedness 
and response. Involvement of State and local officials and 
entities in the regionalization process engages them as true 
partners, not simply outsiders trying to access the system when 
something bad happens.
    Robust regionalization works in the best interest of the 
States and their governors by providing them with one-stop 
shopping. Not only does it offer States an all-purpose Federal 
access point closer to home, that Federal point of contact is 
also steeped and, therefore, versed in the specifics and 
particularities of the relevant area.
    A Federal leader in the field with authority to access 
Federal interagency resources to support preparedness and 
response capacities at the State and local levels provides 
distinct advantages. First, this individual would be a known 
quantity to State and local officials. He or she could provide 
the DHS secretary with important feedback and insight into 
progress being made, performance measures, to advance 
preparedness efforts.
    They would be able to draw not only upon DHS-wide assets 
during a heightened alert or response, but also Federal 
Government-wide resources. Additionally, this pool of key 
officials would provide knowledgeable and experienced 
candidates to serve as the principal Federal official during 
future crises.
    Regions need to link to DOD and HHS assets. Consideration 
should be given to co-locating field components of DOD with the 
regional components of DHS. Let me be clear. I am not 
suggesting that the DHS regional office control DOD assets, but 
that they forge strong partnerships at the regional level 
before disaster strikes.
    Given DOD's planning, logistical, and transportation 
experience, there is much that DHS and State and local 
governments can learn and incorporate from the DOD culture. 
Also, co-locating with HHS regional assets can have significant 
benefits with regard to the management and deployment of the 
strategic national stockpile and the National Disaster Medical 
System.
    To operationalize a muscular regionalized system, we need a 
comprehensive inventory of assets at all levels of government 
as well as regionally. Without that, we will never achieve 
liftoff. All capacities must be accounted for, including 
equipment and personnel.
    Interstate agreements must be in place ahead of time to 
ensure access to these assets, as we have for wild fires, for 
example. Such a framework institutionalizes and has embedded in 
it the sound logic and practice that States and regional assets 
be marshaled and mobilized efficiently, at least to the extent 
possible in a given scenario, before drawing down upon Federal 
stock.
    In the larger context, regions provide us with the ability 
to prioritize funding across multiple jurisdictions. Not every 
jurisdiction is going to require the same needs, the same 
hardware. This requires a mind-set of cooperation and coherence 
rather than competition among jurisdictions.
    Undoubtedly, tough choices will arise as we try to put our 
money where our mouth is, but we cannot allow parochialism to 
trump here.
    Finally, we must build a culture of preparedness that 
starts with individuals and communities. Time and again, 
research has confirmed that only a fraction of the American 
public has taken the basic steps to prepare themselves and 
their families in the event that outside help is not available 
for the first few days following a disaster or attack.
    Empowering people to know how to care for themselves and 
their families lessens the burdens upon the first response 
community and the 911 system. Along with this effort, 
government officials at all levels need to recalibrate and 
manage public expectations about what can realistically be 
expected in terms of services and support.
    And I do not necessarily agree with the findings that we 
need to have a one-size-fits-all national preparedness 
campaign, combining all of our preparedness efforts. I actually 
think all research will show you that you need a trusted 
messenger, not only message, to deliver that message. And those 
messengers are going to be different, depending upon the 
circumstances.
    Let me conclude with the reminder that policy and strategy 
without resources is rhetoric. The process of building 
capabilities and capacities at all levels will require 
sustained funding, leadership, and political will. Congress 
needs to act, in my eyes, to make regions a reality by amending 
the Homeland Security Act of 2002.
    Even with resolve, we cannot accomplish everything 
overnight. We will have to prioritize our objectives over the 
shorter and longer term, bearing in mind the nature and 
probability of the threats at hand using an all-hazards, risk-
based approach. And we need to define how we measure success. 
What gets measured gets done, but we need to make sure that we 
are measuring what really matters.
    In closing, I would like to recognize the Committee and 
staff for their professionalism, and my colleagues and I at the 
Homeland Security Policy Institute stand ready to help in any 
way we can.
    Thank you. And I would be pleased to try to answer any 
questions you may have.
    Chairman Collins. Thank you. Mr. Leonard.

 TESTIMONY OF HERMAN B. LEONARD, Ph.D.,\1\ PROFESSOR OF PUBLIC 
MANAGEMENT, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, PROFESSOR OF 
   BUSINESS ADMINISTRATION, HARVARD BUSINESS SCHOOL, HARVARD 
                           UNIVERSITY

    Mr. Leonard. Thank you, Madam Chairman and Ranking Member 
Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement and supplemental testimony of Mr. 
Leonard with an attachment appears in the Appendix on pages 148 and 166 
respectively.
---------------------------------------------------------------------------
    It is a great pleasure to be before you today and to have 
this opportunity. Thank you for coming back. [Laughter.]
    I want to say that my research work in recent years has 
been focused on crisis management issues, and the research has 
been done jointly with my colleague Arn Howitt from the Taubman 
Center of Government at the Kennedy School. We have looked both 
at private sector and public sector crisis management.
    I am very pleased to have the opportunity to appear before 
a committee which is conducting an objective and nonpartisan, 
fact-based and especially forward-looking analysis of the past 
so that we can build a better future.
    I have a very simple message. The message has been repeated 
here earlier today: We weren't ready in August 2005, and we are 
not ready today.
    We have most of the capabilities that we need to be ready. 
But we do not have in place the systems and processes that we 
need. We do not have in place the trained and experienced and 
selected cadre of expert response leaders and professionals. 
And finally, we don't have the needed apparatus and structure 
of coordination that would enable us and a whole variety of 
different kinds of organizations to come together in the event 
of a catastrophe of the size of Katrina.
    Hurricane Katrina, as has been said repeatedly here and 
elsewhere, was the biggest disaster the United States has 
faced. That is certainly true. I refer to it as a ``Katrina-
class'' event. It defines a new category for us.
    Many have also said that it was the worst-case scenario, 
and that is not quite true. New Orleans, in particular, got 
lucky right at the end when the storm moved a little bit to the 
east. If New Orleans looked the way Biloxi and Gulfport looked, 
we would have been in even worse shape. We literally could have 
lost tens of thousands of people overnight in New Orleans.
    Now that tells us we are on notice that there can be very 
significant catastrophic events and that we are not ready for 
them. Katrina showed us failures at every level and on every 
time scale. For centuries, we have put too much value in 
intrinsically vulnerable places. For decades, we have failed to 
produce adequate protections for those values that we have put 
in harm's way.
    For years, we have failed to build large enough and nimble 
enough response systems to be able to deal with a catastrophe 
of this size. In days before Katrina, we didn't react fast 
enough to get things moving, and in days after, we didn't move 
very effectively. So at every time scale and at every level, we 
have work to do and much to address.
    Now much has been said about failures of leadership, and 
there were plenty of failures of leadership. But I want to ask 
us to think about when exactly those leadership failures took 
place.
    In the days immediately before Katrina came ashore, did we 
adequately mobilize? No. There was more we could have done. In 
the days immediately after, did we move fast enough? Did we get 
the systems that we had going? No, we can do much to improve 
that.
    But I don't think you should start on Monday, August 29, 
and I don't think you should even start on Friday, August 26. I 
think you should start at least on September 12, 2001. Because, 
as of that terrible morning after, anybody who was paying 
attention was on notice that significant catastrophic events 
could befall the United States, whether man-made or natural, 
and that we did not have systems that were adequate to the 
task.
    Now we all knew at that point that we might have to, in the 
case of a natural disaster where we had some warning, pre-
deploy rescue and situational awareness and other assets into a 
disaster area. Or if we didn't have warning, in the case of a 
terrorist event, that we would have to surge security 
apparatus, situational awareness apparatus, assets through 
which we could form a common operational picture and begin, as 
quickly as possible, picking up the pieces.
    We had at least 4 years to begin to develop those systems 
and to put them in place. In fact, we had many years before 
that, if you want to pay attention to the historic record of 
hurricanes. Hurricane Andrew in 1992 put us on notice about 
this. It wasn't a Katrina-class event, but it was close enough 
to let us know that we had much more work to do.
    Let me give an example of what I have in mind when I say 
that we weren't ready. The White House report has some 
interesting passages in it. It is generally good and has a lot 
of good recommendations. On page 47, there is a passage about 
the coordination of Federal law enforcement efforts in the 
immediate aftermath of Katrina. It says this.
    ``The formation of Federal coordination entities also 
improved law enforcement operations. On September 6,'' I 
emphasize the date. ``On September 6, the two senior Federal 
law enforcement officials, each representing the Department of 
Justice and Department of Homeland Security, respectively, 
established a law enforcement coordination center in New 
Orleans to help coordinate law enforcement personnel in the 
city and surrounding parishes.''
    ``For the first time during the hurricane response, New 
Orleans now had a unified command for law enforcement comprised 
of the New Orleans Police Department, the Louisiana State 
police, the National Guard, and all Federal law enforcement 
personnel.''
    This event, for sure, began at the latest on August 29--
August 30, August 31, September 1 to September 6. [Witness 
holds up 8 fingers.] September 6 was 8 days after Katrina came 
ashore. It should not take 8 days to know that we need, nor to 
assemble, a law enforcement collaboration across all the 
different law enforcement organizations that were responding. 
That is far, far too slow.
    Maybe that was the fastest they could do it, given the 
apparatus that existed. But that tells us something about the 
apparatus that we need to create in advance. The right day for 
doing this was about day minus 2. So we were 10 days late in 
being able to assemble. And that is a very basic, but I think 
very poignant, example.
    What would being ready actually look like? First of all, it 
would look like fewer people and less property in intrinsically 
vulnerable and hazardous places. Second, it would look like 
better building codes, stronger buildings, and stronger levees. 
Third, it would mean much more effective capacity to actually 
mobilize an evacuation if you actually need to do so.
    We have never really tried to evacuate an entire major city 
before. And we learned that it was only partially successful. 
Eighty percent is actually pretty good for the first round, but 
what does that tell us? It tells us there is another 20 percent 
to go, which is going to be much harder, take much more 
planning, take much more resources.
    Additionally, being ready would mean that we would have had 
pre-positioned assets for security and for the immediate re-
establishment of situational awareness. In the immediate 
aftermath of any high-intensity event, we know that we are 
going to be blind, deaf, and mute.
    We are not going to be able to see very well into the area 
that was affected. We are not going to be able to hear from the 
people who were in that area. And we are not going to be able 
to say very much to them, unless we act in advance to put in 
place hardened communication assets through which we can see 
and through which we will be able to communicate both into and 
out of the area. We need to have the capacity to pre-position.
    And finally, we need an infrastructure of coordination. We 
need the ability to bring together many different kinds of 
agencies to be able to work smoothly and effectively together.
    It has been emphasized this morning, but I want to say it 
again. We don't want to be exchanging business cards in the 
aftermath. You want that apparatus of agreements and the 
contractual arrangements and understandings of how we will work 
together formed long in advance.
    Now what does this mean that we need to do before the next 
Katrina-class event takes place? I am going to say four things. 
First, we need to implement, truly implement, the National 
Response Plan and the National Incident Management System. We 
have currently a plan. We can argue about details in the plan. 
It is not perfect. There are some things that we can improve 
about it.
    Having a plan is a good start. But just having a plan 
doesn't get the job done. It is only the framework within which 
people would be able to do things if we had practiced, if we 
had the right folks, if we were really ready to go. So the 
first thing we need to do is to implement the plan by building 
that serious capacity.
    What does that mean? It means four essential elements. 
First, capabilities. I think we have most of the capabilities. 
There are some specific ones we can argue about. But most of 
the general capabilities exist. We are a very big country, have 
lots of resources. If we were able to organize and deploy those 
resources, we would have the capabilities.
    What we don't have is the second element: The structures 
and systems, a scalable process. We have a name for it, the 
National Incident Management System. But we don't have the 
practice in actually deploying it. So we need the structures 
and systems.
    Third, we need people who are trained professionals, who 
have exercised, who have practiced, who have been selected for 
their capacity to operate in this kind of environment. Now we 
have that in some areas. We have it in firefighting, for 
example. We don't have it across the board in an all-hazard 
sense for disaster response.
    Two important things happen when you begin to put people in 
a systematic process of building training and experience to 
build professionals. The first is that the people get better. 
They learn stuff individually. But the second and probably more 
important thing is we figure out which ones of them are really 
good at it, and we promote them. So we don't, at the last 
minute, wind up with people who don't actually know what they 
are doing.
    I think Thad Allen is a very good example of this. He has 
accumulated over a lifetime of experience a set of capabilities 
and attributes as an individual. He is a terrific leader in 
this kind of circumstance. But he was also selected for that. 
We have had a chance to see Thad Allen before. And so, it 
wasn't a random event that Thad Allen was available at the time 
the Nation needed him.
    The Nation needs, and it has been said before, but I want 
to emphasize it again, a cadre of trained, practiced, 
experienced professional command teams to operate in response 
situations.
    The fourth element in building and truly implementing the 
National Incident Management System and the National Response 
Plan is building an apparatus of coordination. I want to say 
there are four forms of coordination we need to emphasize.
    First, Federal to Federal. We need much better apparatus at 
the staff and professional level for being able to get Federal 
agencies to work together, aligned with the Incident Management 
System, aligned with each other, and able to coordinate.
    Second, Federal to State and local. We need much better 
communication and pre-existing examples of practice and 
opportunities to work through exercises.
    Third, State and local to State and local. State and local 
governments are not a paragon of capacity to coordinate with 
each other at this stage. They need to develop that capability. 
That is something the Federal Government may be able to help 
with.
    Fourth, but also very important, is government to 
nongovernment coordination. We spend, I think, too much time 
when we look at the response of government thinking only about 
the things the government does. But part of what the government 
can do is to either obstruct or help to mobilize the enormous 
assets of the NGO community and of the private sector and of 
the faith-based community. So all of those elements of advanced 
coordination--building the infrastructure, the agreements, the 
arrangements, the practice, the relationships--all of that we 
need much more work on.
    We also need to emphasize two different kinds of 
coordination. First, a technical coordination. The ability of 
these people to get together and actually deliver the details 
and make the trucks run on time and so on.
    Second, we need political coordination. Political 
coordination means being able to get the political leaders who 
are involved in this to be able to have some shared 
understanding of what is going on, to be working from something 
like the same operational understanding, and to coordinate to 
some extent. This is not always possible to do because they 
will have different points of view. They are known for that. 
But we need to have at least some ability to coordinate their 
perspectives and what they are saying.
    One key thing I want to emphasize is that when we say we 
want more leadership at the top and to have more political 
leaders having more responsibility, I want to be very clear 
that what you don't want to do is to elevate the technical 
command of response to the political level. The politicians are 
not selected for their capacity, and shouldn't be selected for 
their capacity, to operate this kind of system. You want 
trained professionals doing that.
    So keep the politicians doing the politics, which is very 
important and which, in my view, is actually what Rudy Giuliani 
was doing in New York City on September 11, 12, 13, and 14. He 
wasn't running the technical apparatus. He had a well-
practiced, trained technical apparatus, some of which had been 
destroyed, but the rest of which came forward, that was taking 
care of business.
    And he was, meanwhile, standing up in front of the public 
of the world, modeling the capacity to deal with a traumatic 
event. That was an enormously important part of leadership in 
that moment, but it wasn't technical leadership. That was 
political and emotional leadership.
    First, we need to build the National Incident Management 
System in a serious way, as I have just described. Second, we 
need to make sure we have an all-hazards agency. If we do this 
within DHS, which I think most people are suggesting to you we 
should, we need to have an organization that is looking across 
all possible hazards, all possible Katrina-class events.
    We want to keep preparation and response closely aligned 
with each other, and we want to keep response to be ``all 
hazards plus.'' When I say ``all hazards plus,'' Katrina-scale 
events are more similar to each other than they are different 
from each other, but they each also have some specific 
features.
    As a particular example, if we were to have an earthquake, 
that would have different effects on infrastructure than 
Katrina did. So we also need the specific response for specific 
hazards. We want the basic response to be an all-hazards 
response. We also want to be prepared for specific hazards. 
That is why I refer to it as ``all hazards plus.''
    The third element of the model has to be coordination. We 
live in a society constitutionally constructed to have 
different structures of authority that don't all come to the 
same point. And absent declaring martial law in the entire 
country, we aren't going to have an integrated system, and I 
don't think any of us wants to try that approach for the first 
time and have to hope it is going to work either.
    So we need to emphasize a model that includes coordination. 
It will have elements of command and control. That is very 
important. But we need unified commands across agencies, levels 
of government, and across different sectors rather than trying 
to get unitary command.
    And finally, my last point, I want to make sure that we 
don't delegate upwards to politicians the task of trying to run 
the technical aspects of the response. We want to distinguish 
between political work and technical work, and we want a cadre 
of professionals that can do the technical work.
    I hope that our political institutions can help us to 
prepare better for the next round than for the last one. Human 
beings are intrinsically a little myopic, and we hope our 
political institutions, like the ones represented so well here 
today, are going to be up to the task of having us be at our 
best and being forward looking.
    Today, we are still making some of these same mistakes of 
planting value in harm's way and not having the systems built. 
We still have some time, but we don't know how much time. So I 
urge us to get going right away.
    It is my pleasure to be with you. Thank you.
    Chairman Collins. Thank you. Thank you all for excellent 
testimony.
    Mr. Cilluffo, I want to go back to your issue about the 
need for a regionalized approach. One of the striking aspects 
of the response to Katrina that I have noticed is that FEMA 
deployed to the region people from New England, for example, 
who had no knowledge of the region, who didn't know the local 
players, who were literally exchanging business cards in the 
midst of the crisis.
    These were hard-working, good people, but they lacked the 
understanding of the geography, of the people, of the culture. 
I think that made it much more difficult for them to perform 
effectively.
    Secretary Ridge has met with me and talked to me about his 
plan for regional offices of the Department of Homeland 
Security, which unfortunately was put on the shelf and not 
implemented. And I think that was a mistake, but I think we 
need to go even further.
    And what I am considering as a recommendation to share with 
my colleagues on this Committee, and Senator Lieberman and I 
have had some discussions about this, is whether we should have 
interdepartmental task forces based in the region who would 
exercise with State and local officials, with nonprofits, with 
the for-profits, but regionally based. So people know each 
other. They train together. They exercise together. But also so 
that the DOD person isn't meeting the FEMA person for the first 
time.
    I think it needs to go beyond the Department of Homeland 
Security. So I would like to ask all three of you your reaction 
to establishing regional task forces, interdepartmental, that 
would work with State and local governments, but also with the 
private sector and nonprofit sector.
    Mr. Cilluffo, we will start with you.
    Mr. Cilluffo. Madam Chairman, I agree 100 percent. I think 
that is absolutely necessary. And when I say DHS regions, I am 
saying at least make sure we can get across the full assets and 
make sure the whole is greater than the sum of its parts for 
the Department of Homeland Security itself.
    I do think that synching that up with the Department of 
Defense and synching that up with HHS and synching that up with 
others and then making the big mistakes on the practice field, 
not Main Street USA when it matters, is absolutely crucial.
    There is an old Marine adage, ``Fight as you train. Train 
as you fight.'' There is another one that says, ``Amateurs talk 
strategy. Professionals talk logistics.'' And I think it does 
come down to logistics, logistics, logistics. And I am not 
suggesting that we have a permanent--but you want to be able to 
draw upon the full assets not just of the Federal Government, 
but beyond.
    You had many in the private sector, many in the NGO 
community that were trying to plug in and find the way to get 
in. But you can't do that unless you are preparing in advance 
and you are part of the system, not trying to find a way into 
the system. So I think that is a bold recommendation and one 
that I think is critical.
    Chairman Collins. Mr. Baughman.
    Mr. Baughman. Yes, I certainly agree with that. As a matter 
of fact, during the late 1990s, there were things called 
regional interagency steering committees within each one of the 
FEMA regions, which were interagency in nature. And they formed 
the cadre of the emergency response team that went out and 
worked with those States.
    So they were the folks that met with the States day in and 
day out--be it DOD, HHS, whatever the agency was--and worked 
through a lot of these issues. A lot of that has gone away now 
in FEMA.
    Chairman Collins. Mr. Leonard.
    Mr. Leonard. I absolutely agree. I think it is important to 
notice that most of this is not rocket science. Most of what 
you need to do is pretty straightforward. You need to go at it 
in an organized way. Incident management is a good way to 
organize that.
    What you need is to forward deploy in every region of the 
country the local capacity to do that. You need to back it up 
with additional resources, but you need to practice and train 
that in local areas.
    So you could have had long-standing agreements. You could 
have had practice events where these different folks had worked 
with each other before. That would have made an enormous 
difference in the immediate aftermath of Katrina.
    Chairman Collins. Thank you. I really think that would be 
such a good recommendation for us to make and would have the 
kind of practical effect that you have talked about.
    And you made a good point, Dr. Leonard, that with the 
exception, I would argue, of in the communications area, it is 
not that we lack the capabilities, it is that we don't bring 
them together in a coordinated way. And that is why I keep 
looking. I think that is the true organizational issue before 
us, rather than where FEMA ought to be.
    Mr. Baughman.
    Mr. Baughman. Senator, I wanted to mention, it takes some 
resources to do that.
    Chairman Collins. Absolutely.
    Mr. Baughman. The wildland fire community has had 20 
incident management teams that they use on major incidents, 18 
of which are fire, two of which are all hazards. That is where 
we were going in the late 1990s with our emergency response 
team-nationals.
    We picked out the best and brightest within FEMA and the 
interagency community, and they were the ones that----they 
weren't a pick-up team. These were people that trained 
together. The problem that we had is we did not have adequate 
money for training of those teams.
    If you look at what the wildland fire community does, they 
spend an immense amount of time in training and exercising 
those teams.
    Chairman Collins. Very good point. Mr. Cilluffo.
    Mr. Cilluffo. Madam Chairman, could I add one point as 
well? And I do so at great risk, suggesting what the members of 
this esteemed body could be looking at as well. But it is also 
making sure that our appropriations are aligned to the 
authorizers and making sure that the various committees in the 
interagency process see the common good, the common purple 
here.
    And I would go one step further, and we need the war 
college equivalent. At the Department of Defense, you have a 
war college where people understand their promotion paths at 
the Army War College, and you have got the national war 
colleges. There, you want to expand that in the interagency 
process.
    You want to make sure that there are career paths that 
people can know how they can be promoted. They can understand 
the other arms and legs of a big department, and the alphabet 
soup of Washington, and all the Federal agencies that have a 
role. So I think that is the linchpin to sustain that. I think 
the start is to regionalize, but I think there are some 
congressional challenges.
    Chairman Collins. Mr. Leonard.
    Mr. Leonard. If I could just add one small note on this? 
This may sound like it is a resource-intensive idea, but I 
don't think it is. You have most of the resources available, as 
you said before, Madam Chairman.
    Arranging collaboration is not an expensive thing to do. 
Arranging the ability for people to work together is not 
expensive. You will have to have some resources. You will have 
to have some training and so on, but that is what it means to 
be building a professional cadre of people who can actually do 
this. So that is exactly what you want to do, and in the 
regions is where you want to do it.
    Chairman Collins. Let me turn quickly to another issue, and 
that is what functions FEMA ought to have.
    Secretary Chertoff, as you know, has split off or proposed 
to split off the preparedness function from FEMA. And I have 
always felt that was a mistake because I have always felt that 
preparedness and response are two sides to the same coin and 
also that State and local officials who deal with preparedness 
also deal with response. So that is one issue I would like you 
all to comment on.
    But the second issue is whether or not it was a mistake to 
take away from FEMA some of the grant-making process. It seems 
to me that you can more fully align what the State and local 
governments do with Federal funds if FEMA is controlling the 
grant process in that area.
    But those are issues that we are going to need to address 
in our report. So I would like if each of you could discuss it.
    Mr. Baughman. I would like to take that on because the 
National Emergency Management Association has an official 
position on that. To me, even when you look at the Incident 
Command System, planning is an integral part of incident 
management. You have got to have the people that are planning 
on that same team.
    The preparedness that FEMA had was to prepare operational 
plans so that when it came time to execute, they were able to 
execute those plans. The Coast Guard has not given up its 
preparedness responsibilities to the Preparedness Directorate. 
Secret Service has not given up their preparedness to the 
Preparedness Directorate.
    Frank mentioned earlier maybe response and recovery ought 
to go over there. Why not pull preparedness as it pertains to 
response and recovery to disasters back into FEMA? My opinion 
is that is where it belongs.
    The problem that you have had is when you talk preparedness 
in the homeland security context, there are two elements. There 
are preparedness and protection of ports and things like that 
that clearly doesn't belong in FEMA's job jar. But the 
preparedness for response and recovery to disasters, all 
hazards, does belong I think within a single agency, be it FEMA 
or whatever else. But response and recovery, mitigation, and 
preparedness belong together.
    Chairman Collins. And the grant issue?
    Mr. Baughman. The grant issue. The grants provide the 
mechanism for FEMA to be involved in the development of the 
plans and the exercising of those plans. Otherwise, the only 
time we see the FEMA staff is when we have a disaster. They are 
not involved.
    Chairman Collins. Mr. Cilluffo, those two issues?
    Mr. Cilluffo. Madam Chairman, I think those are excellent 
questions. And I am not so sure if it is a FEMA question or if 
FEMA ever fully embodied the DNA and the wherewithal and the 
full capacity of the Department of Homeland Security. I don't 
have a clear answer for you.
    I think if you look at it from the outcome perspective, 
capability perspective, clearly you want to align those 
capacities and capabilities together. And in terms of grant 
making, again, policy without resources is rhetoric. You want 
to be able to put people's feet to the fire to be able to also 
get if you don't meet a certain standard, you have the 
potential of not drawing down on Federal funds.
    There can't be a ``thou shalt'' from Washington, but that 
is one area where I think there is some authority that hasn't 
been fully exercised. And I think if you have the regions' 
perspective, that would happen in and of itself, irrespective 
of whether it is FEMA or preparedness and response component of 
the Department that is fully brought together.
    Chairman Collins. Thank you. Dr. Leonard.
    Mr. Leonard. The most critical alignment for high 
performance in response is the alignment between the way you 
prepared to respond and your ability to execute that. So the 
idea that you want to separate those things seems to me to be 
organizationally very hard to understand. Why would you want to 
do that?
    I think Bruce Baughman made the right point, which is that 
the word ``preparedness'' is a big tent, and there is a lot of 
different stuff under it. So if what you mean by preparedness 
is the prevention of terrorism, well, that is very different 
than preparing to respond to an event that has taken place.
    So the preparedness for a response and response, you 
absolutely want to have aligned and integrated. If you want to 
hive off anything from that, you take the recovery part because 
that is the part you have time to think about. It is the 
response part you don't have time to think about. You have to 
have it ready to go, and you need that directly aligned with 
preparedness. So that would be my view on that.
    In the grants area, I think FEMA was actually making 
progress in trying to get people to exercise together and 
emphasizing things on a regional basis. I think we need more of 
that, which was your earlier point.
    And who exactly controls the grants to do that? I think it 
makes sense for there to be, whoever is doing that to 
understand the all-hazards challenges and to make sure that we 
are practicing on a broad bandwidth of things that might take 
place that might threaten the security of Americans.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you. Thanks for your really 
excellent, helpful testimony.
    A couple of insights along the way that I think describe 
exactly what we have seen. That Eisenhower quote about plans 
being useless, but planning being indispensable. And we had 
some great plans, which, Mr. Baughman, you had a lot to do with 
getting ready.
    But at least as it transferred from the original Federal 
Response Plan to the National Response Plan, what came out is 
that there wasn't a lot of work done in implementing the plan 
so there was planning. And therefore, when disaster struck, we 
weren't ready. And so, that is part of leadership, too, to make 
sure that those plans occurred.
    I thought, Dr. Leonard, your comment or conclusion that we 
have the capabilities, but we don't have the systems, 
processes, coordination, and leadership to deliver those 
capabilities. I think that is a very good point. And it is 
frustrating, but I suppose also, in some sense, optimistic 
because it says if we get our act together, it is well within 
our capacity to deal with these problems.
    Mr. Baughman, in your testimony, you talked about the 
proposed cuts to the Emergency Management Performance Grant 
Program. When Secretary Chertoff was here, Senator Collins led 
a discussion with him about the program, and he really insisted 
that the cuts that the Administration has recommended were 
justified because they had a philosophical view, which was the 
term he used, that it is not a wise investment for the Federal 
Government to fund State and local personnel.
    I wonder if you could respond to that from your experience 
in Alabama and whether you could give some example of how 
important those grants were to you?
    Mr. Baughman. Yes, that is primarily because I don't think 
the Secretary fully understands the implication of the 
emergency management performance grants. While they can pay for 
personnel, they should be outcome based.
    The intent is to get a plan, procedure, and exercises in 
place. If you have to hire personnel, you ought to allow people 
to do that. But instead, he is looking at it, you use it 
primarily to fund people.
    I look at my grants with my local jurisdictions and in my 
State as outcome based. I ask them to do certain things for 
that amount of money, to produce a receipt and distribution 
plan for water and ice and things like that. Mutual aid teams, 
so that their teams are able to mobilize and deploy.
    Those are the kinds of outcomes I look at in those grants. 
And if he wants to change it to that, that is fine. But those 
grants are needed to do that level of planning. And I think it 
is very important that those plans are in place because there 
is a Federal investment in that. Because if those plans are 
properly done, they will save hundreds of millions of dollars 
in Federal dollars on the disaster.
    Two of my counties, I had one county that had a debris plan 
in place. It cost us $9.50 a yard for debris removal. Another 
county did not, hadn't done their work. Had the U.S. Army Corps 
of Engineers do it. Cost $18. Times 11 million cubic yards of 
debris. That is a lot of money.
    Senator Lieberman. A lot of money. That is a great example. 
Thank you.
    Dr. Leonard, I want to give you a specific example and ask 
you a question based on Katrina. And that is the whole question 
of evacuations. Recognizing that pre-disaster evacuations 
typically have been the responsibility of State and local 
governments. Here we had a case where it was clear to 
everybody--Hurricane Pam, etc.--that there was going to be some 
significant percentage of the population that was not going to 
get out on its own.
    In that kind of case, what should the Federal Government 
do? What is the appropriate Federal role in getting ready to 
evacuate those people?
    Mr. Leonard. This is a very delicate question, Senator, 
because the Federal Government at its peril supersedes local 
authority on issues in which the local authorities mainly have 
control and have vastly more local knowledge than the Federal 
Government officials that might be coming in.
    Still, I think Katrina shows us a good example where it 
might be necessary to have some backstop capability to do 
something more. The critical thing that I think the only 
partially successful evacuation of New Orleans shows us is the 
very great heterogeneity of the population that will not be 
able to be addressed by the kind of ``get yourself out if you 
can'' part of an evacuation.
    And it is not just that they are different from the folks 
who left. The folks that are left behind are different from the 
ones who left, and they are very different from each other. 
There are some who didn't want to go. There are some who wanted 
to stay because they wanted to pilfer their neighbors' houses. 
There are some who couldn't get out because they were in 
hospital beds. There were some who had no real connection to 
transportation systems, and there were some who hadn't heard 
about it.
    These people are all different from each other. So it is a 
very complex undertaking. And I think, at an absolute minimum, 
we need much more effective planning for evacuation, which 
should involve a Federal presence. And conceivably, we need to 
develop a Federal capacity to backstop the local capacity and 
to mobilize when we see extreme danger and ineffectiveness at 
the local level for whatever reason.
    Senator Lieberman. So you would say that in a catastrophic 
situation or in preparing for a Federal Government role in 
catastrophes that it is probably safe to assume that the State 
and local at a catastrophe level are not going to be able to 
evacuate everybody, and there ought to be contingency Federal 
plans to be able to do that with that heterogeneous population.
    I think Mr. Cilluffo and Mr. Baughman want to add something 
here?
    Mr. Cilluffo. Senator Lieberman, I think you address a very 
key set of issues. And if you looked at Hurricanes Rita and 
Wilma, you did have further military assets that were deployed 
for evacuation. Obviously, that may be the exception, not 
necessarily the rule.
    But we do, I think, need to focus on the vulnerable 
populations, including not only the lower income families, who 
don't have the wherewithal to plan for themselves, but also the 
disabled. And you are going to have some specific needs and 
requirements, and this was accentuated with the elderly in some 
of the nursing homes and some of the hospitals.
    And integrating that into the process is absolutely 
crucial. But I have got to ask a question.
    Senator Lieberman. We ask the questions here. [Laughter.]
    Oh, you meant rhetorically?
    Mr. Cilluffo. A rhetorical question. I am not sure how well 
even under the best of circumstances we can evacuate major 
metropolitan areas. And I think we need to start asking some 
hard questions, such as shelter in place, community shielding.
    I haven't heard too much discussion on the long-term 
recovery efforts in the Gulf. Why aren't we designing a perfect 
community? Whether it is on quick sand is a different question. 
I am not going to answer that. But why are we designing a 
community that doesn't factor in shelter in place, that doesn't 
factor in community shielding, that doesn't factor in 
evacuation planning to the design itself, that doesn't factor 
in strategic national stockpile distribution, that doesn't 
factor in the PODs?
    This is a great opportunity to at least build--and I am 
working with someone I believe you have worked with in the 
past, former congressman Richard Swett--to look at how we embed 
in the actual architecture itself some of these issues, and 
there is not a whole lot of discussion on that.
    Senator Lieberman. It is a very important point that, for 
instance, in the case of New Orleans, where everyone was 
worried about the big storm that would break the levees or 
overtop the levees, presumably the exercise of real aggressive 
preparation would have been to have some shelters in place on 
high ground. Where obviously in the other cases, unfortunately, 
I think you are speaking to a reality, the prospect of 
evacuating a major American city, particularly in the event of 
a terrorist attack without warning, is going to be very 
difficult.
    So, in those cases, that is a major undertaking to start 
thinking about how do you create a shelter in which people can 
be protected, for instance, from chemical or biological?
    Mr. Baughman. I would like to address that because we deal 
with three types of evacuation plans in my State--hurricanes, 
nuclear power plant evacuation, and around our chemical 
stockpile, a six-county area. And there are certain criteria 
that we have to meet to get Federal funds for those plans.
    And so, funding is an incentive to get things done. I don't 
receive any funding for my hurricane evacuation plans. But one 
of the things the Federal Government did do is to provide me 
the scientific data to allow me to know what the coastal 
inundation area was, what the wind fields are likely to be on a 
Category 4, Category 5. That then establishes my clearance 
times for getting my population out of those counties.
    So that is my responsibility. That is the governor's 
responsibility. But the Federal Government's role in that is to 
give us the scientific data to make those decisions. In our 
State, the governor retains the responsibility for mandatory 
evacuation. We actually did that twice without a single loss of 
life.
    During Hurricane Ivan, 240,000 people evacuated our coastal 
counties, and during Hurricane Dennis, another close to 200,000 
people evacuated the coastal counties. When Hurricane Katrina 
came along, we did not have to do a mandatory evacuation. 
Public education kicked in, and people moved out of the area 
real smartly.
    Senator Lieberman. That is a good point. Incidentally, in 
this regard, it may be that we will look back and decide that 
Tom Ridge wasn't so wrong when he urged people, at least as a 
first step, to go out and get some duct tape and food and water 
to put in the basement.
    Mr. Baughman. And actually, some of those things are 
protective action. What Frank is talking about is if you have a 
no-notice release within a major metropolitan area caused by a 
terrorist event, how are you going to do that? In our chemical 
stockpile area, we actually have done that. So duct tape is an 
option in those particular cases.
    Senator Lieberman. I have a last question, which I may, if 
I may turn tables on you, give you as homework. Unless 
something really jumps to mind and you think we should know 
today.
    And the question is, obviously, we are not the only Nation 
to deal with the question of how do you respond to disasters, 
catastrophes in this case. We are fortunate that we actually 
have more resources nationally than any other Nation. So my 
question is, is anything happening in any other country that 
ought to serve as a model, in part or in whole, for what we 
should be doing? Anybody got a quick thought?
    Mr. Baughman. My experience is about 4 or 5 years old. I 
used to sit on a UN committee, so we had the opportunity to 
look at a lot of the other countries' disaster relief plans. 
Frankly, ours structurally, if you look at our plan, is far 
ahead of what the other countries' are. They, however, have got 
more executive interest in the plans----
    Senator Lieberman. Was it more from the political 
leadership?
    Mr. Baughman. Political leadership is heavily involved. The 
Netherlands, Norway, Finland, those countries, political 
leadership is very involved in the execution of those plans.
    My job in the last couple of years has been educating, 
getting my governor, and we have had a cabinet-level exercise. 
We go down. We don't meet with the emergency managers or the 
emergency service personnel because it is political leadership 
that have got to make things happen. We meet with the county 
commissioners and the mayors. They are the ones that I direct 
my education at.
    Senator Lieberman. Mr. Cilluffo.
    Mr. Cilluffo. I think that is an excellent point, and even 
though I am a big believer in learning from my own mistakes, I 
am even a bigger believer in learning from the mistakes of 
others. And I do think there is a lot----
    Senator Lieberman. The latter is more pleasant, too. 
[Laughter.]
    Mr. Cilluffo. But I just came back from Stockholm, and they 
have the equivalent of a 9/11 Commission looking at the tsunami 
response. It is actually generating attention at the highest 
levels of government and the general public, and I do think 
they are coming across many of the same sorts of insights we 
are addressing right now.
    I do think the UK can serve, to some extent, as a model, 
most notably from a homeland security perspective, for 
terrorist response. And I do think there are a lot of things we 
just take for granted that they have in place that won't 
necessarily work in an event. But I think that that is an 
excellent way to craft this issue and often gets lost in the 
mix. We should learn from others.
    Senator Lieberman. Dr. Leonard.
    Mr. Leonard. It is an important question, but I do want to 
raise a caution about it as well. Our system of government is 
very different from that of most other countries. Wonderfully 
so, I think most of us think.
    In our case, the States created the Federal Government and 
not the other way around. So, in other countries, you have a 
much greater capacity to have a unitary response, where the 
Federal Government in its authority role is unobstructed right 
down to the street level.
    That is never going to be true here. And therefore, one of, 
I think, the great strengths of this country is the capacity we 
have in all kinds of different organizations--State and local 
organizations, nonprofit organizations, private sector 
organizations--and it is going to be our ability to pull those 
creatively together in the moment. That, I think, is what 
distinguishes our society in general, but also in disaster 
response.
    And so, I think while it is important to learn lessons from 
how others have organized, I have studied some of the ways the 
British have organized around their terrorist events, how they 
behaved around their version, their July bombing events in the 
London Underground. It is a very different model. It is a 
cleaner model in some respects. But it is also probably not 
available to us, given our constitutional structure.
    Senator Lieberman. Thank you very much. You have been very 
helpful.
    Chairman Collins. Thank you so much for your testimony. It 
has really been excellent. I think this panel has been a 
terrific way to end what is our final hearing, I hope, on the 
preparation for and response to Hurricane Katrina.
    We are now in the midst of trying to compile 
recommendations for our report and make decisions on what 
should be included, and I hope the three of you will continue 
to work with us as we go forward because you have a wealth of 
experience and expertise here that will be very helpful in 
guiding our final recommendations.
    The hearing record will remain open for 15 days, as we 
submit additional questions for the record and other materials. 
But again, I want to thank you for assisting us in what I think 
is a very important completion of our work.
    And again, I also want to end by thanking our staffs, which 
have worked literally night and day for nearly 6 months now on 
what I think has been an extraordinary job.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Just to echo and 
second what you have said, thank our staffs. And they and we 
have a lot of work to do now in the weeks ahead to bring 
together all that we have learned in a coherent and compelling 
fashion that ultimately will be constructive.
    And I guess I would end, finally, thank you again. And just 
to end on a note of nonpartisanship that characterizes our 
deliberations in this Committee, I agree with you that I hope 
this is our last hearing on Katrina. [Laughter.]
    Chairman Collins. This hearing is now adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 27747.001

[GRAPHIC] [TIFF OMITTED] 27747.002

[GRAPHIC] [TIFF OMITTED] 27747.003

[GRAPHIC] [TIFF OMITTED] 27747.004

[GRAPHIC] [TIFF OMITTED] 27747.005

[GRAPHIC] [TIFF OMITTED] 27747.006

[GRAPHIC] [TIFF OMITTED] 27747.007

[GRAPHIC] [TIFF OMITTED] 27747.008

[GRAPHIC] [TIFF OMITTED] 27747.009

[GRAPHIC] [TIFF OMITTED] 27747.010

[GRAPHIC] [TIFF OMITTED] 27747.011

[GRAPHIC] [TIFF OMITTED] 27747.012

[GRAPHIC] [TIFF OMITTED] 27747.013

[GRAPHIC] [TIFF OMITTED] 27747.014

[GRAPHIC] [TIFF OMITTED] 27747.015

[GRAPHIC] [TIFF OMITTED] 27747.016

[GRAPHIC] [TIFF OMITTED] 27747.017

[GRAPHIC] [TIFF OMITTED] 27747.018

[GRAPHIC] [TIFF OMITTED] 27747.019

[GRAPHIC] [TIFF OMITTED] 27747.020

[GRAPHIC] [TIFF OMITTED] 27747.021

[GRAPHIC] [TIFF OMITTED] 27747.022

[GRAPHIC] [TIFF OMITTED] 27747.023

[GRAPHIC] [TIFF OMITTED] 27747.024

[GRAPHIC] [TIFF OMITTED] 27747.025

[GRAPHIC] [TIFF OMITTED] 27747.026

[GRAPHIC] [TIFF OMITTED] 27747.027

[GRAPHIC] [TIFF OMITTED] 27747.028

[GRAPHIC] [TIFF OMITTED] 27747.029

[GRAPHIC] [TIFF OMITTED] 27747.030

[GRAPHIC] [TIFF OMITTED] 27747.031

[GRAPHIC] [TIFF OMITTED] 27747.032

[GRAPHIC] [TIFF OMITTED] 27747.033

[GRAPHIC] [TIFF OMITTED] 27747.034

[GRAPHIC] [TIFF OMITTED] 27747.035

[GRAPHIC] [TIFF OMITTED] 27747.036

[GRAPHIC] [TIFF OMITTED] 27747.037

[GRAPHIC] [TIFF OMITTED] 27747.038

[GRAPHIC] [TIFF OMITTED] 27747.039

[GRAPHIC] [TIFF OMITTED] 27747.040

[GRAPHIC] [TIFF OMITTED] 27747.041

[GRAPHIC] [TIFF OMITTED] 27747.042

[GRAPHIC] [TIFF OMITTED] 27747.043

[GRAPHIC] [TIFF OMITTED] 27747.044

[GRAPHIC] [TIFF OMITTED] 27747.045

[GRAPHIC] [TIFF OMITTED] 27747.046

[GRAPHIC] [TIFF OMITTED] 27747.047

[GRAPHIC] [TIFF OMITTED] 27747.048

[GRAPHIC] [TIFF OMITTED] 27747.049

[GRAPHIC] [TIFF OMITTED] 27747.050

[GRAPHIC] [TIFF OMITTED] 27747.051

[GRAPHIC] [TIFF OMITTED] 27747.052

[GRAPHIC] [TIFF OMITTED] 27747.053

[GRAPHIC] [TIFF OMITTED] 27747.054

[GRAPHIC] [TIFF OMITTED] 27747.055

[GRAPHIC] [TIFF OMITTED] 27747.056

[GRAPHIC] [TIFF OMITTED] 27747.057

[GRAPHIC] [TIFF OMITTED] 27747.058

[GRAPHIC] [TIFF OMITTED] 27747.059

[GRAPHIC] [TIFF OMITTED] 27747.060

[GRAPHIC] [TIFF OMITTED] 27747.061

[GRAPHIC] [TIFF OMITTED] 27747.062

[GRAPHIC] [TIFF OMITTED] 27747.063

[GRAPHIC] [TIFF OMITTED] 27747.064

[GRAPHIC] [TIFF OMITTED] 27747.065

[GRAPHIC] [TIFF OMITTED] 27747.066

[GRAPHIC] [TIFF OMITTED] 27747.067

[GRAPHIC] [TIFF OMITTED] 27747.068

[GRAPHIC] [TIFF OMITTED] 27747.069

[GRAPHIC] [TIFF OMITTED] 27747.070

[GRAPHIC] [TIFF OMITTED] 27747.071

[GRAPHIC] [TIFF OMITTED] 27747.072

[GRAPHIC] [TIFF OMITTED] 27747.073

[GRAPHIC] [TIFF OMITTED] 27747.074

[GRAPHIC] [TIFF OMITTED] 27747.075

[GRAPHIC] [TIFF OMITTED] 27747.076

[GRAPHIC] [TIFF OMITTED] 27747.077

[GRAPHIC] [TIFF OMITTED] 27747.078

[GRAPHIC] [TIFF OMITTED] 27747.079

[GRAPHIC] [TIFF OMITTED] 27747.080

[GRAPHIC] [TIFF OMITTED] 27747.081

[GRAPHIC] [TIFF OMITTED] 27747.082

[GRAPHIC] [TIFF OMITTED] 27747.083

[GRAPHIC] [TIFF OMITTED] 27747.084

[GRAPHIC] [TIFF OMITTED] 27747.085

[GRAPHIC] [TIFF OMITTED] 27747.086

[GRAPHIC] [TIFF OMITTED] 27747.087

[GRAPHIC] [TIFF OMITTED] 27747.088

[GRAPHIC] [TIFF OMITTED] 27747.089

[GRAPHIC] [TIFF OMITTED] 27747.090

[GRAPHIC] [TIFF OMITTED] 27747.091

[GRAPHIC] [TIFF OMITTED] 27747.092

[GRAPHIC] [TIFF OMITTED] 27747.093

[GRAPHIC] [TIFF OMITTED] 27747.094

[GRAPHIC] [TIFF OMITTED] 27747.095

[GRAPHIC] [TIFF OMITTED] 27747.096

[GRAPHIC] [TIFF OMITTED] 27747.097

[GRAPHIC] [TIFF OMITTED] 27747.098

[GRAPHIC] [TIFF OMITTED] 27747.099

[GRAPHIC] [TIFF OMITTED] 27747.100

[GRAPHIC] [TIFF OMITTED] 27747.101

[GRAPHIC] [TIFF OMITTED] 27747.102

[GRAPHIC] [TIFF OMITTED] 27747.103

[GRAPHIC] [TIFF OMITTED] 27747.104

[GRAPHIC] [TIFF OMITTED] 27747.105

[GRAPHIC] [TIFF OMITTED] 27747.106

[GRAPHIC] [TIFF OMITTED] 27747.107

[GRAPHIC] [TIFF OMITTED] 27747.108

[GRAPHIC] [TIFF OMITTED] 27747.109

[GRAPHIC] [TIFF OMITTED] 27747.110

[GRAPHIC] [TIFF OMITTED] 27747.111

[GRAPHIC] [TIFF OMITTED] 27747.112

[GRAPHIC] [TIFF OMITTED] 27747.113

[GRAPHIC] [TIFF OMITTED] 27747.114

[GRAPHIC] [TIFF OMITTED] 27747.115

[GRAPHIC] [TIFF OMITTED] 27747.116

[GRAPHIC] [TIFF OMITTED] 27747.117

[GRAPHIC] [TIFF OMITTED] 27747.118

[GRAPHIC] [TIFF OMITTED] 27747.119

[GRAPHIC] [TIFF OMITTED] 27747.120

[GRAPHIC] [TIFF OMITTED] 27747.121

[GRAPHIC] [TIFF OMITTED] 27747.122

[GRAPHIC] [TIFF OMITTED] 27747.123

[GRAPHIC] [TIFF OMITTED] 27747.124

[GRAPHIC] [TIFF OMITTED] 27747.125

[GRAPHIC] [TIFF OMITTED] 27747.126

[GRAPHIC] [TIFF OMITTED] 27747.127

[GRAPHIC] [TIFF OMITTED] 27747.128

[GRAPHIC] [TIFF OMITTED] 27747.129

[GRAPHIC] [TIFF OMITTED] 27747.130

[GRAPHIC] [TIFF OMITTED] 27747.131

[GRAPHIC] [TIFF OMITTED] 27747.132

[GRAPHIC] [TIFF OMITTED] 27747.133

[GRAPHIC] [TIFF OMITTED] 27747.134

[GRAPHIC] [TIFF OMITTED] 27747.135

[GRAPHIC] [TIFF OMITTED] 27747.136

[GRAPHIC] [TIFF OMITTED] 27747.137

[GRAPHIC] [TIFF OMITTED] 27747.138

[GRAPHIC] [TIFF OMITTED] 27747.139

[GRAPHIC] [TIFF OMITTED] 27747.140

[GRAPHIC] [TIFF OMITTED] 27747.141

[GRAPHIC] [TIFF OMITTED] 27747.142

[GRAPHIC] [TIFF OMITTED] 27747.143

[GRAPHIC] [TIFF OMITTED] 27747.144

[GRAPHIC] [TIFF OMITTED] 27747.145

[GRAPHIC] [TIFF OMITTED] 27747.146

[GRAPHIC] [TIFF OMITTED] 27747.147

[GRAPHIC] [TIFF OMITTED] 27747.148

[GRAPHIC] [TIFF OMITTED] 27747.149

[GRAPHIC] [TIFF OMITTED] 27747.150

[GRAPHIC] [TIFF OMITTED] 27747.151

[GRAPHIC] [TIFF OMITTED] 27747.152

[GRAPHIC] [TIFF OMITTED] 27747.153

[GRAPHIC] [TIFF OMITTED] 27747.154

[GRAPHIC] [TIFF OMITTED] 27747.155

[GRAPHIC] [TIFF OMITTED] 27747.156

[GRAPHIC] [TIFF OMITTED] 27747.157

[GRAPHIC] [TIFF OMITTED] 27747.158

[GRAPHIC] [TIFF OMITTED] 27747.159

[GRAPHIC] [TIFF OMITTED] 27747.160

[GRAPHIC] [TIFF OMITTED] 27747.161

[GRAPHIC] [TIFF OMITTED] 27747.162

[GRAPHIC] [TIFF OMITTED] 27747.163

[GRAPHIC] [TIFF OMITTED] 27747.164

[GRAPHIC] [TIFF OMITTED] 27747.165

[GRAPHIC] [TIFF OMITTED] 27747.166

[GRAPHIC] [TIFF OMITTED] 27747.167

[GRAPHIC] [TIFF OMITTED] 27747.168

[GRAPHIC] [TIFF OMITTED] 27747.169

[GRAPHIC] [TIFF OMITTED] 27747.170

[GRAPHIC] [TIFF OMITTED] 27747.171

[GRAPHIC] [TIFF OMITTED] 27747.172

[GRAPHIC] [TIFF OMITTED] 27747.173

[GRAPHIC] [TIFF OMITTED] 27747.174

[GRAPHIC] [TIFF OMITTED] 27747.175

[GRAPHIC] [TIFF OMITTED] 27747.176

[GRAPHIC] [TIFF OMITTED] 27747.177

[GRAPHIC] [TIFF OMITTED] 27747.178

[GRAPHIC] [TIFF OMITTED] 27747.179

[GRAPHIC] [TIFF OMITTED] 27747.180

[GRAPHIC] [TIFF OMITTED] 27747.181

[GRAPHIC] [TIFF OMITTED] 27747.182

                                 <all>

</pre></body></html>
